APPENDIX

TABLE OF CONTENTS
Appendix A:
Appendix B:
Appendix C:
Appendix D:
Appendix E:
Appendix F:

Maryland Court of Appeals opinion,
Mar. 15, 2021 .................................................. 1a
Maryland Court of Special Appeals
opinion, Jan. 29, 2020 .................................. 52a
Circuit Court for Baltimore City
opinion, Oct. 24, 2018 ................................... 71a
Maryland Tax Court opinion,
Feb. 27, 2018 ................................................ 83a
District court opinion,
Dec. 28, 2015................................................. 91a
Article 8, Subtitle 29,
Baltimore City Code ................................. 106a

APPENDIX A
IN THE COURT OF APPEALS
OF MARYLAND
No. 9
September Term, 2020

24-C-18-001778
CLEAR CHANNEL OUTDOOR, INC.
v.
DIRECTOR, DEPARTMENT OF FINANCE OF
BALTIMORE CITY

Filed: March 15, 2021
Barbera, C.J.,
McDonald
Watts
Hotten
Getty
Booth
Biran,
JJ.

(1a)

2a

Opinion by McDonald, J.
Getty, J., dissents.

OPINION
The power to tax is a necessary and essential power of
government. Freedom of speech is a necessary and
essential element of a democracy. Under the
constitutional provisions that protect freedom of speech
and of the press, differential taxation of those who operate
platforms for speech is “constitutionally suspect when it
threatens to suppress the expression of particular ideas
or viewpoints.”1 Those constitutional provisions require
“heightened scrutiny” of tax laws that “single out the
press,” that “target a small group of speakers,” or that
“discriminate on the basis of the content of taxpayer
speech.”2 This case requires us to apply that test to a local
tax on billboard operators.
A Baltimore City ordinance imposes a tax on the
privilege of selling advertising on billboards that are not
located on the premises where the goods or services being
advertised are offered or sold. Petitioner Clear Channel
Outdoor, Inc. (“Clear Channel”), which is in the business
of selling advertising on its billboards in the City, sought
a refund from the Respondent City Director of Finance of
the taxes that it has paid pursuant to that ordinance. Clear
Channel asserted that the ordinance is unconstitutional
because a tax related to the sale of advertising on its
1

Leathers v. Medlock, 499 U.S. 439, 447 (1991).

2

Leathers, 449 U.S. at 447.

3a
billboards cannot survive the heightened scrutiny that is
applied under the constitutional provisions that protect
freedom of speech and of the press. The City denied the
request for a refund and Clear Channel initiated this
litigation by pursuing an administrative appeal of that
decision in the Maryland Tax Court.
The Tax Court was not persuaded by Clear Channel’s
constitutional arguments and upheld the City’s rejection
of the refund request. On judicial review of the Tax Court
decision, the Circuit Court for Baltimore City and the
Court of Special Appeals reached the same conclusion. So
do we.
I. BACKGROUND
A. Baltimore City Enacts a Billboard Tax
1. The Ordinance
In June 2013, the Baltimore City Council enacted an
ordinance that imposed an excise tax “on the privilege of
exhibiting outdoor advertising displays in the City.”
Ordinance 13-139 (June 20, 2013), codified as amended at
Baltimore City Code, Article 28 (Taxes), §29-1 et seq.
(2020) (“the Ordinance”).3 The Ordinance defined an
“outdoor advertising display” as:
[A]n outdoor display of a 10 square foot or larger
image or message that directs attention to a business,
commodity, service, event, or other activity that is:
(i) sold, offered, or conducted somewhere other than
on the premises on which the display is made; and
(ii) sold, offered, or conducted on the premises only
incidentally if at all.
Unless otherwise indicated, statutory references are to sections
of Article 28 of the Baltimore City Code.
3

4a
§29-1(d).
The signs containing such displays are
commonly referred to as billboards. However, as the
definition indicates, the Ordinance does not encompass a
sign that advertises a business or other activity on the
premises where the sign is located—i.e., the Ordinance
applies only to off-site billboards.
The Ordinance levies the tax on the “advertising
host”—defined as a person who owns or controls the
billboard and charges for its use as an outdoor advertising
display. §§ 29-1(b), 29-3.4 The tax is assessed annually
based on the size and type of display: $15 per square foot
for an electronic display that changes images more than
once a day5 and $5 per square foot for any other display.
§29-3. The tax does not depend on the number of ads, the
duration of an ad, or the subject matter of an ad. The
advertiser who purchases an ad to be displayed on a
billboard is not taxed under the Ordinance.
According to the City, the sole purpose of the
Ordinance is to generate revenue. At the time of its
passage, the City’s Bureau of Budget and Management
Research estimated that the Ordinance would generate $1
million in tax revenue for the 2014 fiscal year and $1.7
million for each fiscal year thereafter. See Memorandum
from the Bureau of Budget & Management Research to
the President and Members of the Baltimore City Council
(April 25, 2013), available at https://perma.cc/J7T9-KH6T.
While individuals and various types of entities are included in the
definition of “person” in the ordinance, governmental entities are excluded. §29-1(e).
4

5
A digital billboard may change images frequently during a day
and thus serve multiple advertisers in the same location during that
day. A different City law limits the frequency of the alteration of images on a digital billboard. Baltimore City Code, Article 32 (Zoning),
§17-407(c).

5a
The Ordinance is part of the City’s Change to Grow TenYear Financial Plan and, according to the Bureau, was
“included in the plan to help protect arts and culture
funding from further cuts.” Id.
2. Billboards in Baltimore City
It is undisputed that the Ordinance affects 760 signs
operated by four entities, including Clear Channel. It also
appears to be undisputed that Clear Channel owns the
vast majority of the affected billboards, which account for
approximately 90% of the tax revenue generated by the
Ordinance. The highly concentrated billboard market in
the City may be due, at least in part, to the fact that the
City banned the construction of new billboards in March
2000.6
While Clear Channel primarily displays content
supplied by third parties who pay for the use of its
billboards, it also occasionally displays its own content.
Although the billboards are largely devoted to
commercial advertising, like other advertising platforms,
some of the billboards also on occasion carry messages
concerning sports and breaking news, as well as political
messages and public service announcements, sometimes
without charge. Like other advertising platforms, Clear
Channel decides what it will allow to appear on its
billboards as it allocates the limited space available.
Testimony and exhibits presented in the Tax Court
6
See Baltimore City Code, Article 32 (Zoning), §17-406(a)(1) (2020)
(“Except as otherwise specifically provided in this Code, the erection,
conversion, placement, or construction of new billboards, static or
digital, is prohibited”); Jamie Stiehm, O’Malley Signs His First Bill
into Law, Prohibits Construction of Billboards; Industry Has
Threatened to Challenge Law in Court, The Baltimore Sun (Mar. 28,
2000), available at https://perma.cc/F8PB-3KYG.

6a
hearing touched upon the editorial discretion exercised by
Clear Channel. Clear Channel prohibits some messages
outright, such as those related to sexually-oriented
businesses and those it deems factually inaccurate.
According to Clear Channel, it vets political messages for
factual accuracy and ensures that no side of a political
issue or electoral race receives favorable pricing.
B. Clear Channel Challenges the Tax
Shortly after the City enacted the Ordinance, Clear
Channel sought to have it struck down as
unconstitutional. An initial foray in federal court failed on
jurisdictional grounds. Clear Channel then pursued a
refund of taxes paid to the City under the Ordinance,
citing the same constitutional grounds. That effort
resulted in litigation in State courts, including this appeal.
1. Federal Declaratory Judgment Action Fails
for Lack of Jurisdiction
In August 2013, Clear Channel brought an action
challenging the Ordinance in federal court, arguing that
the Ordinance impermissibly regulated commercial
speech in violation of the First and Fourteenth
Amendments of the United States Constitution. The City
responded that, because the Ordinance imposes a tax, the
Tax Injunction Act deprived the federal court of subject
matter jurisdiction.7 In December 2015, the federal
district court agreed and granted summary judgment in
favor of the City. Clear Channel Outdoor, Inc. v. Mayor

7
The Tax Injunction Act prohibits federal district courts from enjoining, suspending, or restraining “the assessment, levy or collection
of any tax under State law where a plain, speedy and efficient remedy
may be had in the courts of such State.” 28 U.S.C. §1341 (2020).

7a
and City Council of Baltimore, 153 F. Supp. 3d 865, 875
(D. Md. 2015).
2. Clear Channel Pays Taxes and Requests a
Refund
Following the federal court decision, Clear Channel
paid the tax due under the Ordinance for the 2014 and
2015 fiscal years under protest. It requested a refund
from the City, reiterating its argument that the tax is
unconstitutional under the First and Fourteenth
Amendments, and also invoking Article 40 of the
Maryland Declaration of Rights. The City denied Clear
Channel’s refund request.
It responded to Clear
Channel’s arguments, asserting that, because the
Ordinance is a revenue-raising measure that satisfies
rational basis review, it is constitutional. In July 2016,
Clear Channel paid the tax due under the Ordinance for
the 2016 fiscal year and again requested a refund—a
request that was again rejected by the City.
3. Maryland Tax Court Affirms Denial of
Refund
Clear Channel pursued an administrative appeal of
the City’s denial of its refund requests in the Maryland
Tax Court. Again invoking the First Amendment and
Article 40, Clear Channel argued in the Tax Court that
messages on billboards are constitutionally protected
speech. It asserted that the tax imposed by the Ordinance
targets a limited number of speakers, thereby chilling
speech, and that the burden that the Ordinance places on
such speech is not narrowly tailored and outweighs any
governmental interest that the Ordinance advances.
The Tax Court rejected Clear Channel’s arguments. It
noted the “strong presumption in favor of duly enacted
taxation schemes.” Clear Channel Outdoor, Inc. v.

8a
Department of Finance of Baltimore City, Appeal No. 16MI-BA-0571 (February 27, 2018), 2018 WL 1178952 at *23 (quoting Leathers v. Medlock, 499 U.S. 439, 451 (1991)).
The Tax Court concluded that an excise tax imposed on
the privilege of exhibiting outdoor advertising displays is
“a tax on the privilege of continuing in business, not on
exercising free speech.” Id. Indeed, the Tax Court
continued, Clear Channel’s conduct as a billboard
operator was insufficiently communicative for the First
Amendment to come “into play,” because Clear Channel
“does not express or say anything; it only sells space to
advertisers who say things.” Id. The Tax Court concluded
that the Ordinance does not “impose[] a burden on free
speech” and is rationally related to the legitimate
governmental purpose of raising revenue. Id.
The Tax Court also concluded that, although the
burden of the tax falls only on Clear Channel and a few
other billboard operators, the Ordinance does not target
a limited number of speakers. According to the Tax Court,
the criteria used to determine the amount of tax (size and
type of billboard) did not raise a constitutional issue
because those criteria are unrelated to the extent of
circulation and apply to all off-premises billboards. Id.
The Tax Court stated that there was a rational basis for
classifying large and immobile billboards separately from
other signs for tax purposes. Id. The Tax Court further
noted that the tax applies to a small group of billboard
operators at least in part because of “the City’s longstanding zoning regulation controlling billboards and the
concentrated marketplace in the City,” not the
Ordinance’s structure. Id.
Based on this analysis, the Tax Court affirmed the
City’s denial of Clear Channel’s refund requests.

9a
4. Judicial Review of the Tax Court Decision
Clear Channel sought judicial review of the Tax
Court’s decision in the Circuit Court for Baltimore City.
That court affirmed the Tax Court’s decision, reiterating
much of the Tax Court’s analysis and concluding that the
decision was legally correct and supported by substantial
evidence. Clear Channel Outdoor, Inc. v. Department of
Finance of Baltimore City, Case No. 24-C-18-001778
(October 24, 2018), 2018 WL 7890750. Clear Channel then
appealed to the Court of Special Appeals, which also
affirmed the Tax Court in a reported decision. Clear
Channel Outdoor, Inc. v. Director, Department of
Finance of Baltimore City, 244 Md. App. 304 (2020). Clear
Channel then filed a petition for a writ of certiorari, which
we granted.
II. DISCUSSION
Clear Channel asks us to reverse the decisions of the
courts below and ultimately that of the Tax Court. It
argues that the Ordinance violates the constitutional
provisions that protect freedom of speech. It contends
that a tax on a billboard advertising business is subject to
“heightened scrutiny” under those constitutional
provisions and that the Ordinance improperly targets a
small group of speakers—billboard operators—in levying
the tax.
A. Standard of Appellate Review
The Tax Court is an administrative agency, and its
decisions are reviewed under the same appellate
standards generally applied to agency decisions under the
Maryland Administrative Procedure Act. Maryland Code,
Tax-General Article, §13-532(a)(1). In an appeal from
judicial review of an agency decision, we directly review
the agency’s decision rather than the decision of a circuit

10a
court or of the Court of Special Appeals. Office of People’s
Counsel v. Public Service Commission, 461 Md. 380, 391
(2018). Accordingly, we review directly the Tax Court’s
decision and apply the same standard of review as those
courts did.
When the Tax Court interprets Maryland tax law, we
accord that agency a degree of deference as the agency
that administers and interprets those statutes.
Comptroller v. Wynne, 431 Md. 147, 160-61 (2013). In this
case, the Tax Court decision turned on application and
analysis of the First Amendment of the federal
Constitution as well as Article 40 of the Maryland
Declaration of Rights. Because our review concerns
issues of constitutional law, we do not defer to the
agency’s determination of those issues. Wynne v.
Comptroller, 469 Md. 62, 80 (2020).
B. Governing Principles under the State and
Federal Constitutions
1. The First Amendment and Article 40
The First Amendment to the federal Constitution is
made applicable to the states by the Fourteenth
Amendment and, in relevant part, enjoins the enactment
of laws “abridging the freedom of speech, or of the press.”
Its Maryland counterpart, Article 40 of the Maryland
Declaration of Rights, provides “[t]hat the liberty of the
press ought to be inviolably preserved; that every citizen
of the State ought to be allowed to speak, write and
publish his sentiments on all subjects, being responsible
for the abuse of that privilege.” Although the two
constitutional provisions are worded differently and this
Court has sometimes held out the possibility that Article
40 could be construed differently from the First
Amendment in some circumstances, the Court has

11a
generally regarded the protections afforded by Article 40
as “coextensive” with those under the First Amendment.
Newell v. Runnels, 407 Md. 578, 608 (2009); State v.
Brookins, 380 Md. 345, 350 n.2 (2004). Neither party has
suggested that the circumstances of this case provide a
reason for departing from that general rule, and we see
none. Accordingly, our analysis of Clear Channel’s
contentions under the First Amendment applies equally
to the same issues under Article 40. For convenience, we
will refer solely to the First Amendment in discussing the
applicable standards in this opinion, but that discussion
also encompasses the application of Article 40.
2. Standard for Review of Legislation under the
First Amendment
In its decision in this case, the Tax Court considered
whether it should apply strict scrutiny, also called
“heightened scrutiny,” or rational basis scrutiny to the
Ordinance, and concluded that rational basis was the
appropriate test. The heightened scrutiny standard is well
established in the case law for situations in which
legislation infringes First Amendment rights. See, e.g.,
Elrod v. Burns, 427 U.S. 347, 362 (1976). The source of a
rational basis test in these circumstances is less clear as
the judiciary does not have a freestanding general charge
to review all legislation for rationality. A rational basis
test does apply when a party challenges a classification in
legislation under the Equal Protection Clause in
circumstances where neither a fundamental right nor a
suspect classification is involved. Regan v. Taxation with
Representation, 461 U.S. 540, 546-51 (1983). Many cases
involving challenges to legislation under the First
Amendment have also relied on the Equal Protection
Clause, and the courts have applied a rational basis test
after concluding that the heightened scrutiny test under

12a
the First Amendment was not applicable. Id.; see also
Arkansas Writers’ Project v. Ragland, 481 U.S. 221, 227
n.3 (1987) (noting that a publication’s “First Amendment
claims are obviously intertwined with interests arising
under the Equal Protection Clause”). Although Clear
Channel has not explicitly invoked the Equal Protection
Clause in its complaint in this case, it is at least implicit in
its argument that a tax triggered by the sale of
advertising on off-site billboards treats it unequally. Thus,
it was not inappropriate for the Tax Court to conclude that
it should apply a rational basis test if heightened scrutiny
under the First Amendment did not pertain to the matter
at hand.8
In any event, there does not appear to be any dispute
that, if a rational basis test is applied, the Ordinance
passes that test as a revenue raising measure that is
clearly within the taxing authority of the City. Thus, the
resolution of this case depends on whether the First
Amendment’s heightened scrutiny standard is to be
applied here and, if so, whether the Ordinance survives
that scrutiny.
3. Billboards and Speech
There is no dispute that billboards are a platform for
speech and that the text or images that appear on
billboards are entitled to some First Amendment
protection. Metromedia, Inc. v. City of San Diego, 453
8
Clear Channel has contended, without much elaboration, that, if
heightened scrutiny does not apply, an intermediate scrutiny test
should be applied. However, none of the cases concerning the taxation
of speech platforms on which it relies applies such a test and, for the
reasons stated later in this opinion, the cases it cites involving intermediate scrutiny do not apply in the circumstances of this case. See
footnote 16 below.

13a
U.S. 490, 501 (1981) (plurality opinion) (“Billboards are a
well-established medium of communication, used to
convey a broad range of different kinds of messages”);
Donnelly Advertising Corp. of Maryland v. City of
Baltimore, 279 Md. 660, 667 (1977) (ads on billboards are
“entitled to some protection by the First Amendment,
whether they be of a commercial, political, or charitable
nature”). However, it is also true that billboards “combine
communicative and noncommunicative aspects,” the
latter of which “the government has legitimate interest in
controlling.” Metromedia, 453 U.S. at 502. Because the
regulation—or taxation—of the noncommunicative
aspects of a medium may “impinge to some degree on the
communicative aspects,” it has fallen to the courts to
reconcile the exercise of those governmental powers with
the protection provided by the First Amendment. Id.
4. Taxation and the First Amendment
a. Supreme Court Case Law
Taxation is, of course, essential to the support of
government—a certainty sometimes equated to
mortality.9 Unsurprisingly, perhaps, the Supreme Court
has reiterated that, even in the context of the First
Amendment, there is a strong presumption in favor of the
validity of tax legislation. Leathers v. Medlock, 499 U.S.
439, 451 (1991); Regan v. Taxation with Representation,
461 U.S. 540, 547-48 (1983). Nevertheless, the choices that
a legislature makes in devising a tax scheme may be a
means of penalizing or discouraging speech and thereby
violate the First Amendment. The Supreme Court has
9
Benjamin Franklin is said to have coined the phrase “Nothing is
certain except death and taxes.” National Constitution Center, Benjamin Franklin’s last great quote and the Constitution (November
13, 2019).

14a
grappled in a series of cases with defining when a taxation
scheme involving public media may infringe First
Amendment rights. See Leathers, supra.; Arkansas
Writers’ Project, Inc. v. Ragland, 481 U.S. 221 (1987);
Minneapolis Star & Tribune Co. v. Minnesota
Commissioner of Revenue, 460 U.S. 575 (1983); Grosjean
v. American Press Co., 297 U.S. 233 (1936).
Grosjean
In Grosjean, Louisiana imposed a 2% gross receipts
tax on the sale of advertising in newspapers, magazines
and other publications with a circulation of more than
20,000 copies per week. 297 U.S. at 240. Only 13 of the 137
newspapers circulating in Louisiana at that time were
subject to the tax. Id. at 241. The publishers of the
newspapers subject to the tax brought an action to enjoin
it, invoking the First Amendment.
In discerning the purpose of the First Amendment,
the Supreme Court recounted a brief history of British
taxes on newspapers that were effectively “taxes on
knowledge” and that acted as a prior restraint on the free
press, which the Court lauded as “one of the great
interpreters between the government and the people.” Id.
at 246-50. The Court observed that the opposition to such
laws was not so much an effort to avoid taxation as to
“preserve the right of the English people to full
information in respect of the doings and misdoings of their
government.” Id. at 247. On the other hand, the Court
stated that the concern that a particular tax might be
motivated to suppress criticism did not relieve
newspapers from “ordinary forms of taxation for support
of the government.” Id. at 250.
In the case before it, the Court found the Louisiana tax
to be “suspicious” as the tax was measured, not by the

15a
volume of advertising, but solely by the extent of the
newspaper’s circulation, with the “plain purpose of
penalizing the publishers and curtailing the circulation of
a selected group of newspapers.” Id. at 251. Although not
explicitly mentioned in the Court’s opinion, it was
apparently well known at the time that the proponents of
the measure had a retaliatory motive similar to that
underlying the English tax legislation described in the
Court’s opinion as part of the Framers’ inspiration for the
First Amendment.10
Minneapolis Star
The Minneapolis Star decision concerned certain
amendments to the Minnesota sales and use taxes. Prior
to the amendments, periodic publications such as
newspapers had been exempt from those taxes. 460 U.S.
at 577. As a result of the amendments, the newspapers
remained exempt from the sales tax, but ink and paper
used in the publications were made subject to the use tax;
a provision exempted the first $100,000 of those items
consumed by a publication. Id. at 577-78. The end result
was that only a small fraction of the newspapers
circulating in Minnesota—14 of 388 newspapers—were
subject to the use tax and one publisher accounted for
two-thirds of the revenues from the tax. Id. at 578-79.

10
See City of Baltimore v. A.S. Abell Co., 218 Md. 273, 284-85 (1958)
(noting that the tax under review in Grosjean was supported by Senator Huey Long as a form of retaliation against publications that had
opposed his political agenda); Minneapolis Star & Tribune Co. v.
Minnesota Comm’r of Revenue, 460 U.S. 575, 579-80 (1983) (quoting
a circular distributed by the Louisiana governor and Senator Long
characterizing the publications subject to the tax as “lying newspapers” and the Louisiana tax as a “tax on lying”); see also Edward J.
Gerald, The Press and the Constitution 1931-1947 at 100-01 (1948).

16a
The Supreme Court found that, although newspapers
are appropriately subject to general economic regulation,
including taxes, this application of the Minnesota sales
and use taxes singled out the press for special treatment.
460 U.S. at 582. The Court observed that the use tax on
paper and ink did not serve the normal function of a use
tax—offsetting the incentive a sales tax creates for
purchasing taxable items out-of-state—because the
Minnesota tax applied to items (ink and paper) that were
exempt from the sales tax. Id. at 582. In addition, and
contrary to the “ordinary rule” in Minnesota that only the
ultimate retail sale and not intermediate transactions
were taxed, this use tax applied to intermediate
components even though they would ultimately become
part of a publication sold at retail. Id. Moreover, the tax
not only singled out the press, but targeted a small subset
of the press—those using paper and ink costing in excess
of $100,000. The Court rejected Minnesota’s justification
for this disparity—that it was favoring smaller
businesses—because the state’s tax “resemble[d] more a
penalty for a few of the largest newspapers than an
attempt to favor struggling smaller enterprises.” Id. at
592. The Court stated that, even if the legislature had no
“illicit” intent, “a tax that singles out the press, or that
targets individual publications within the press, places a
heavy burden on the State to justify its action.” Id. at 59293.
Arkansas Writers’ Project
The Arkansas Writers’ Project decision concerned
application of a gross receipts tax on the sale of tangible
personal property in Arkansas. There were numerous
exemptions from the tax, including for: “[g]ross receipts
or gross proceeds derived from the sale of newspapers”
and “religious, professional, trade and sports journals

17a
and/or publications printed and published within this
State . . . when sold through regular subscriptions.” 481
U.S. at 224. The Court struck down the tax on two
grounds. First, as with the sales and use tax in
Minneapolis Star, the exemptions from the Arkansas tax
meant that the tax effectively targeted a small group of
speakers—those magazines not encompassed in the
exemptions. Id. at 229. Second, the tax discriminated
based on content of a taxpayer’s speech because
application of the magazine exemption depended on a
review of the subject matter of the publication. Id. As to
the latter rationale, the Court stated that it did not matter
that the tax was based on the general subject matter of
the publication, as opposed to the expression of a
particular viewpoint on that subject matter. Id. at 230.
Leathers
In the Leathers decision, the Supreme Court reprised
its prior discussions of the First Amendment in the
context of tax laws affecting the media, but distinguished
the operation of the tax in question from those that the
Court had found to violate the First Amendment in
Grosjean, Minneapolis Star, and Arkansas Writers’
Project.
The Leathers case arose from an amendment that
extended an Arkansas sales tax on sales of personal
property and specified services to include the services of
cable television operators. Sales of newspapers and
magazines remained exempt from the tax, and the
amendment did not extend the tax to satellite broadcast
television services. 499 U.S. at 441-43. The tax was
challenged as violative of the First Amendment. The
Court thus addressed the question “whether the First
Amendment prevents a State from imposing its sales tax
on only selected segments of the media.” Id. at 444.

18a
The Court summarized the principles it distilled from
its prior decisions:
[D]ifferential taxation of First Amendment speakers
is constitutionally suspect when it threatens to
suppress the expression of particular ideas or
viewpoints. Absent a compelling justification, the
government may not exercise its taxing power to
single out the press. The press plays a unique role as
a check on government abuse, and a tax limited to the
press raises concerns about censorship of critical
information and opinion. A tax is also suspect if it
targets a small group of speakers. Again, the fear is
censorship of particular ideas or viewpoints. Finally,
for reasons that are obvious, a tax will trigger
heightened scrutiny under the First Amendment if it
discriminates on the basis of the content of taxpayer
speech.
499 U.S. at 447 (citations omitted).11 The Court also
stressed that the inevitable classifications and distinctions
made by legislatures in designing a tax statute are
entitled to a strong presumption of constitutionality. Id.
at 451-52.
As to the case before it, the Court observed that the
Arkansas tax was generally applicable and did not single
out the press; nor was it structured so as to raise
suspicions that it was intended to interfere with a cable
operator’s First Amendment activities. 449 U.S. at 447-48.
In contrast to the operation of the tax and exemption in
11
Although the Leathers opinion referred to the standard of review
in such cases with the phrase “heightened scrutiny,” the Supreme
Court later indicated that the standard was equivalent to that meant
by the more familiar phrase “strict scrutiny.” See Turner Broadcasting System, Inc. v. FCC, 512 U.S. 622, 661 (1994).

19a
Arkansas Writers’ Project—which effectively targeted a
small group of magazines for the tax and exempted
others—the tax at issue in Leathers applied uniformly to
all cable systems in the state. Id. Finally, the Supreme
Court concluded that the tax did not discriminate on the
basis of the content of taxpayer speech. Id. at 449. The
Court stressed that the underlying concern of the First
Amendment is the potential for censorship of ideas. Thus,
“differential taxation of speakers, even members of the
press, does not implicate the First Amendment unless the
tax is directed at, or presents the danger of suppressing,
particular ideas.” Id. at 453.12
b. Maryland Case Law
This Court has considered the constraints that the
free speech provisions of the State and federal
constitutions place on taxation of media on two occasions.
Prior to most of the Supreme Court cases described in the
previous section of this opinion, this Court considered a
challenge to a Baltimore City ordinance that imposed a
sales tax on the sale of advertising in various media,
including billboards. City of Baltimore v. A.S. Abell Co.,
218 Md. 273 (1958). Several decades later, following all of
the Supreme Court decisions described above, this Court
applied the principles set forth in those cases to decide
whether the exclusion of an advertising circular from the
12
In the Arkansas state courts, the cable television operators had
also contended that the tax, which did not apply to satellite television
services, violated the Equal Protection Clause of the Fourteenth
Amendment. The Supreme Court left it to the Arkansas Supreme
Court to address that issue on remand. 499 U.S. at 453. The state supreme court later held that the different treatment accorded to cable
television and satellite television operators under the Arkansas law
satisfied the rational basis test and did not violate the Equal Protection Clause. Medlock v. Leathers, 842 S.W.2d 428, 431 (Ark. 1992).

20a
“newspaper exemption” to the State sales tax violated the
First Amendment. Maryland Pennysaver Group, Inc. v.
Comptroller, 323 Md. 697 (1991).
A.S. Abell Co.
In A.S. Abell Co., two Baltimore City ordinances
imposed a tax on the gross sales of advertising space and
time in newspapers, radio and television broadcasts, and
billboards. 218 Md. at 278. A regulation under those
ordinances exempted most broadcast advertising from
the tax—which this Court noted as a possible indication of
“discrimination in a constitutional sense against the
newspapers.” Id. at 280. The Court engaged in an
extended discussion of the Grosjean decision, the leading
Supreme Court precedent at that time. Applying that
decision to the situation before it, the Court observed that
the Baltimore City tax was imposed on only a segment of
the advertising industry—primarily newspapers and
broadcasters—and “singled out” entities subject to the
protection of the First Amendment. Id. at 287-88. The
Court held that such a tax violated the free speech rights
of the newspapers and broadcasters and effected just as
serious a restraint upon First Amendment rights as one
with an ulterior retaliatory motive, as apparently had
been the case with the tax in Grosjean. Id. at 289.
The Court did not classify billboards as equivalent to
newspapers and broadcast media and did not reach the
question whether a tax on billboard advertising revenue
would violate the First Amendment. It assumed, without
deciding, that the tax was constitutional as it related to
billboard operators. Id. at 289. However, the Court
concluded that the City would not have adopted the tax if
the tax had applied only to billboard advertising and that
therefore the provision concerning billboards was not

21a
severable. Id. at 289-90.13 Accordingly, the Court struck
down the tax as it related to billboard advertising as well.
Maryland Pennysaver
Several decades later and a few months after the
Supreme Court’s decision in Leathers, this Court had
occasion to apply that decision in Maryland Pennysaver.
That case involved a publication printed on newsprint and
referred to as an advertising circular or “pennysaver.”
The publication consisted largely of commercial ads
purchased by businesses and classified ads purchased by
individuals, but also included content labeled “Community
News” consisting primarily of announcements of activities
such as meetings, fundraisers and social events, as well as
some columns on topics of local interest authored by
public officials. 323 Md. at 699-700. The publisher sought
to have the publication declared exempt from the State
sales tax under a regulation known as the “newspaper
exemption.” Alternatively, the publisher argued that
exclusion of the pennysaver from that exemption would
violate the First Amendment. Id. at 701.
This Court first determined that the pennysaver did
not fall within the newspaper exemption as a matter of
statutory and regulatory construction. 323 Md. at 701-11.
It then assessed the constitutional question by reviewing
the four Supreme Court decisions outlined in the previous
section of this opinion and quoting extensively from
Leathers. In concluding that application of the sales tax to
the pennysaver was constitutional, the Court noted that
the sales tax was broad-based, that other publishers with
13
The Court made a similar assumption as to the constitutionality
of the tax as it applied to out-of-state purchasers of advertising and
came to a similar conclusion as to severability of that application of
the tax.

22a
advertising targeted to localities were subject to the tax,
and that it was not inappropriate to treat the pennysaver
differently from a newspaper in light of the pennysaver’s
“overwhelming commercial speech content.” Id. at 714-15.
It concluded that there was “no threat to the
dissemination of ideas” in treating a pennysaver
differently from a newspaper and that there was no
infringement of First Amendment rights.14 The Court also
held that the exclusion of shopping advertisers from the
definition of newspaper in the sales tax regulations was
not unconstitutionally vague, at least as applied to the
publication before the Court. Id. at 716-17.
c. Summary
We discern the following principles from the decisions
of the Supreme Court and this Court outlined above:


The potential for censorship or prior restraint
by the government was the animating concern
of the First Amendment, particularly with
respect to “the press” as the interpreter of the
activities of the government to its citizens and
with respect to a law that was effectively a “tax
on knowledge.” However, to demonstrate
infringement of First Amendment rights, it is
not essential that a party show, or that a court
find, that a legislature had an illicit intent in
enacting a law that has such an effect.
Grosjean; Minneapolis Star; A.S. Abell Co.



Tax laws are presumed to be valid and
constitutional, even in the context of a First

14
Even if the law was considered a restriction on speech in the pennysaver, the Court held that the tax was not a “restriction of constitutional dimension.” 323 Md. at 715.

23a
Amendment challenge. The First Amendment
does not exempt the press, or other speakers,
from broad-based taxes. Grosjean; Leathers.


A tax may not “single out the press” unless
there is a compelling reason for doing so.
Grosjean; Minneapolis Star; Leathers.



A tax that targets a small group of speakers
among the press is suspect, particularly when
that small group is defined by the content of its
publication, even if not by the expression of a
particular viewpoint. Grosjean; Minneapolis
Star; Arkansas Writers’ Project; Leathers.



Differential taxation of speakers is particularly
suspect under the First Amendment when it
discriminates on the basis of the content of
speech and targets the expression of particular
ideas or viewpoints. Grosjean; Arkansas
Writers’ Project; Leathers.

C. Whether the Ordinance Is Constitutional
Applying the principles outlined in the previous
section of this opinion, we conclude that the First
Amendment does not require heightened scrutiny of the
Ordinance and that the Tax Court correctly concluded
that the Ordinance is constitutional.
First, there is no dispute that the Ordinance is within
the taxing power of the City,15 was properly enacted by
The City has the “power to tax to the same extent as the State of
Maryland has or could exercise said power within the limits of Baltimore City as a part of its general taxing power.” Baltimore City Charter, Article II, §40; Maryland Constitution, Article XI-A; see generally Department of Legislative Services, Maryland Handbook Series,
Vol. VI (Maryland Local Government) at 108 (2018) (taxing authority
15

24a
the Mayor and City Council, and is entitled to the strong
presumption of validity accorded to such enactments.
As this Court did in Maryland Pennysaver, we look to
the framework provided by Leathers. Leathers makes
clear that a tax on selected segments of the media, like the
tax on billboards here, does not necessarily trigger
heightened scrutiny16 or violate the First Amendment.
Instead, differential taxation triggers heightened
scrutiny “when it threatens to suppress the expression of
particular ideas or viewpoints.” 499 U.S. at 447. The Tax
of Baltimore City under State law established in Baltimore City
Charter).
Clear Channel argues that even if the Ordinance is not subject to
strict scrutiny, it should be subject to intermediate scrutiny, citing
Turner Broadcasting System, Inc. v. FCC, 512 U.S. 622 (1994).
Turner concerned a “must carry” regulation of the Federal Communications Commission (“FCC”) that required cable television systems
to devote a portion of their channels to local broadcast television stations. In upholding the regulation, the Supreme Court applied an intermediate scrutiny test rather than heightened or strict scrutiny.
Although the FCC regulation was content-neutral, it directly concerned what speech would appear on the cable stations, unlike the excise tax at issue in this case.
16

Likewise, the intermediate scrutiny applicable to commercial
speech under Central Hudson Gas & Electric Corp. v. Public Service
Comm’n, 447 U.S. 557 (1980) has no application here. Central Hudson
concerned a state regulation that directly regulated commercial
speech—it prohibited advertising by utilities that promoted the use
of electricity. Accordingly, the four-part test created by that decision
was addressed to how a regulation restricts content.
Even if an intermediate standard were to be applied, the Ordinance
would satisfy that standard. Cf. Donnelly Advertising Corp. of Maryland v. City of Baltimore, 279 Md. 660, 668-70 (1977) (applying intermediate scrutiny and rational basis tests in holding that ordinance
requiring removal of all off-premises signs in urban renewal district
did not violate First or Fourteenth Amendments).

25a
Court made no finding of a retaliatory motive or potential
for censorship such as that which inspired the tax law in
Grosjean and the record would not support such a finding,
if one had been made.17 There is no evidence that the
Ordinance, in intent or effect, is designed to censor or
exert a prior restraint on the press. Nothing in the
legislative history of the Ordinance suggests such an
intent and, as outlined below, the tax imposed by the
Ordinance has no relation to the content of the ads that
might be displayed on Clear Channel’s billboards. The
Ordinance does not regulate the size of a billboard, where
it can be located, what it can say or who can say whatever
it says.
In the absence of a finding that the Ordinance was
designed to suppress the expression of ideas or
viewpoints, we consider the criteria identified in Leathers
that may require heightened scrutiny: (1) whether the
Ordinance “singles out the press”; (2) whether it “targets
a small group of speakers”; and (3) whether it
“discriminates on the basis of the content of taxpayer
speech.” 499 U.S. at 447. Although Clear Channel
primarily focused on the second Leathers criterion in the
Tax Court and in its petition for certiorari in this case,18 it

17
Clear Channel suggests that an owner of a site leased for a billboard may be wary of messages critical of local officials and that,
some years ago, City officials might have been unhappy about a billboard advertisement purchased by a public employees’ union that was
critical of the City government at that time. Neither conjecture was
linked to the Ordinance.

In its petition for a writ of certiorari, Clear Channel posed the
following two questions:
18

1 - Is the operation of billboards protected by the First Amendment, thereby subjecting its taxation to heightened scrutiny?

26a
has asserted in brief and argument that all three apply.
Accordingly, we shall address all three.
1. Whether the Ordinance Singles Out the Press
Although Clear Channel does not primarily urge a
heightened scrutiny standard based on a theory that the
Ordinance singles out the press, it does assert that off-site
billboards are part of “the press.” This seems a bit of a
stretch. The First Amendment decisions invalidating
taxes on which Clear Channel relies—Grosjean,
Minneapolis Star, Arkansas Writers’ Project, and A.S.
Abell Co.—all singled out newspapers, broadcasters,
magazines, and other topical periodicals for special
treatment—the sort of media that, in the words of the
Grosjean decision, act as “interpreters of the
government” to its citizens and that report on the “doings
and misdoings” of government.
Nevertheless, as methods of expression change, the
First Amendment principles that protect speech adapt.
For example, the Supreme Court noted that, upon the rise
of cable television during the latter half of the 20th
century, a cable television operator “partakes of some of
the aspects of speech and the communication of ideas as
do the traditional enterprises of newspaper and book
publishers, public speakers, and pamphleteers.” City of
Los Angeles v. Preferred Communications, 476 U.S. 488,
494 (1986). As a result, a cable television operator is thus
“engaged in ‘speech’ under the First Amendment, and is,
in much of its operation, part of the ‘press.’” Leathers, 499
U.S. at 444.19 Billboards have long displayed messages
2 - Does the Tax single out a single platform for speech or a small
group of speakers, thereby subjecting it to heightened scrutiny?
This Court has similarly recognized that freedom of the press is
not necessarily limited to traditional media when the communication
19

27a
other than commercial advertising and the development
of digital billboards creates the opportunity for a single
billboard to display a greater number and variety of
messages.
Even so, the billboards subject to the Ordinance are
more akin to the advertising circular in Maryland
Pennysaver which, although it devoted some space to
editorial content, was primarily a medium for advertising.
While Clear Channel exercises some discretion in
deciding how to allocate the scarce space on its billboards
to its best advantage, it does not claim to be a
newsgathering organization that curates what it
disseminates according to journalistic principles. It is
more accurately described as a commercial advertising
vehicle that dabbles in non-commercial content, paid and
unpaid.
The fact that a billboard may function on occasion or
in some measure like the traditional “press” does not
make it equivalent to a newspaper or broadcaster for
purposes of the First Amendment. Unlike traditional
media that fall within the rubric of “the press,” billboards
could be limited or banned entirely—as Baltimore City
has done prospectively—under the land use laws for
esthetic and safety reasons without offending the First
Amendment.20 See Metromedia, Inc. v. City of San Diego,
453 U.S. 490, 512, 541, 559-61, 570 (1981); Major Media of
involves “such free and general discussion of public matters as seems
essential to prepare people for an intelligent exercise of their rights
as citizens.” Howard Sports Daily v. Weller, 179 Md. 355, 361 (1941).
20
A billboard operator may be of two minds about this. While such
regulation could portend the demise of the operator’s business, it
also—as in the case of Clear Channel’s Baltimore City billboard business—erects a barrier to entry that fortifies the market power of a
dominant incumbent operator.

28a
the Southeast, Inc. v. City of Raleigh, 792 F.2d 1269, 1272
(4th Cir. 1986).
Clear Channel’s billboards thus may qualify as a
medium that in some small aspect functions similarly to
what is traditionally referred to as “the press.” However,
even from that perspective, the Ordinance can hardly be
said to “single out” the press. A tax singles out the press
when some aspect of it indicates “a purposeful attempt to
interfere with First Amendment activities” or it “is
structured so as to raise suspicions that it was intended to
do so.” Leathers, 499 U.S. at 448. The tax in Grosjean
singled out widely circulated newspapers and had the
“direct tendency” to “restrict circulation.” 297 U.S. at 24445. The Supreme Court found this effect similar to the
early English “taxes on knowledge” that curtailed the
circulation of newspapers and thus “the opportunity for,
the acquisition of knowledge by the people in respect
of . . . the doings or misdoings of their government” that
the framers of the First Amendment had in mind. Id. at
247. The key in Grosjean was not simply that the tax was
assessed on an element of the press, but that it singled out
those that most acted as government watchdogs.
Similarly, the tax in Minneapolis Star “single[d] out the
press for a different method of taxation” under the
otherwise broad-based use tax by taxing components of
newspaper production (ink and paper) for the largest
newspapers in the state and thus had the effect of “a
penalty for a few of the largest newspapers.” 460 U.S. at
578.
By contrast, the Ordinance in this case taxes all
operators of off-site billboards in the City who sell
advertising on those billboards and has no direct or
indirect effect on the extent of the circulation of
billboards. The fact that it applies only to billboards,

29a
without more, is insufficient to deem it a tax that “singles
out” the press. As in Leathers, there is no indication that
the City has taxed billboard operators to interfere with
First Amendment activities or that the tax is structured
to raise suspicion that it was intended to do so.
2. Whether the Ordinance Targets a Small
Group of Speakers
To determine whether the Ordinance targets a small
group of speakers, one must first decide how to define the
appropriate reference group. “Small,” of course, is a word
of comparison. If the relevant universe is defined as all
entities subject to a tax, then the tax is universal. If the
relevant reference group is defined to include many
besides those subject to the tax, then the taxed group is
by comparison “small.”
Unsurprisingly, the parties choose different reference
groups to assess this question. Clear Channel argues that
the Ordinance targets a small group of speakers because
it applies to 760 billboards controlled by four entities, but
not the many other outdoor commercial signs in the City
or the many other businesses in the City. The City limits
its comparison to off-site billboards.
It is instructive to consider the taxes in Grosjean,
Minneapolis Star, and Arkansas Writers’ Project, the
groups of speakers affected by those taxes, and the
benchmark group referenced in each of those cases by the
Supreme Court. As indicated in Leathers, the design of
the taxes in each of those cases affected a smaller group
within a larger universe of similar members of the same
media. The tax in Grosjean singled out higher circulation
newspapers but left many more newspapers with lower
circulation untaxed. The tax in Minneapolis Star fell on
newspapers that consumed more paper and ink—which

30a
presumably correlated to higher circulation—but left the
many more newspapers that consumed less of those
components untaxed. As the Court observed in Leathers,
both of those taxes “selected a narrow group to bear fully
the burden of the tax.” 499 U.S. at 449. Similarly, the tax
in Arkansas Writers’ Project exempted newspapers and
numerous categories of magazines and left only a few
magazines subject to the tax, which “operated in much the
same way as did the . . . exemption in Minneapolis Star.”
Id. at 446.
Given that the test is whether a law “targets” a small
group of “speakers,” implying that there are other
speakers who are not targeted, the appropriate reference
group should include similarly-situated members of the
same medium. Thus, the principle drawn from these cases
is that a tax targets a small group of speakers when it
distinguishes among members within related types of
media, not simply when it applies to a specific form of
media.
It is over-inclusive to group off-premises billboards
with all other commercial signs for purposes of this
analysis. Billboards have characteristics as a medium that
can warrant separate treatment from other signs. See
Metromedia, 453 U.S. at 509 (“We [] hesitate to disagree
with the accumulated, common-sense judgments of local
lawmakers and of the many reviewing courts that
billboards are real and substantial hazards to traffic
safety.”). Moreover, to hold that any tax on a particular
form of media—or group of entities that could be
characterized as “speakers”—automatically qualifies as
targeting a small group of speakers would inject the First
Amendment as a new uniformity requirement for tax

31a
legislation that would encumber a legislature’s legitimate
and important ability to tax.21
The Ordinance applies to all off-site billboards in the
City for which the operator charges customers for
displaying the customer’s advertising. It does not
distinguish among billboards according to any other
factor, such as the duration or extent of speech (e.g., the
circulation of a newspaper) or its subject matter. The fact
that there are only four taxpayers affected by the
Ordinance is due largely to market conditions, not the
structure of the Ordinance. As noted above, the City
banned the construction of new billboards 20 years ago,
which has effectively barred new entrants from
challenging Clear Channel’s near monopoly of the
medium.
In our view, the Ordinance does not trigger
heightened scrutiny under the First Amendment by
targeting a small group of speakers.
3. Whether the Ordinance
Based on Content

Discriminates

As noted earlier, the tax imposed by the Ordinance
does not depend on what messages are displayed on a
billboard, who a message is attributed to, or how long any
particular message is displayed. Unlike the tax in
21
See Herman v. Mayor and City Council of Baltimore, 189 Md.
191, 197 (1947) (“The State . . . may impose different taxes upon different trades and professions and may vary the rates of excise upon
various products. In levying such taxes, the State is not required to
resort to close distinction or to maintain a precise, scientific uniformity with respect to composition, use, or value. To hold otherwise
would be to subject the essential taxing power of the State to an intolerable supervision, hostile to the basic principles of our government.”).

32a
Arkansas Writers’ Project, even the general content of
the message does not matter. What matters is whether
Clear Channel charges the person or entity responsible
for the message to display it on the billboard. If Clear
Channel devoted a billboard entirely to its own message
or to a message of someone else without charge, no tax
would be levied under the Ordinance, regardless of the
substance of the message. It is the commercial
transaction, not the content of the message, that triggers
the tax.
Clear Channel argues that the Ordinance
discriminates on the basis of the content of taxpayer
speech because it applies only to off-premises billboards,
and one must read a billboard in order to determine
whether it qualifies as an off-premises or on-premises
sign. It cites the Supreme Court’s recent decision in Reed
v. Town of Gilbert, 576 U.S. 155, 163 (2015), which held
that content-based restrictions on speech in signs could
manifest both in obvious ways, such as by relating to the
subject matter of a sign, and in more subtle ways, such as
by relating to a sign’s function or purpose.
The decision in Reed did not hold that an onpremises/off-premises distinction—a common distinction
made in the regulation of billboards—was a content-based
regulation that would trigger heightened scrutiny under
the First Amendment. The sign regulation at issue in
Reed was content-based on its face for other reasons. 576
U.S. at 164. Notably, while all nine justices joined in the
judgment in that case, there were four separate opinions
filed in the case. Of the six justices who joined the primary
opinion in the case, three also joined Justice Alito’s
concurrence, which listed types of sign regulation that are
not content-based. Included on that list were sign
regulations “distinguishing between on-premises and off-

33a
premises signs.” Id. at 174-75 (Alito, J., concurring).
Justice Kagan’s opinion, joined by two other justices,
cautioned against an overly expansive definition of
content-based sign regulation and, it seems safe to say,
would likewise not find an on-premises/off-premises
distinction in sign regulation to trigger strict scrutiny. See
id. at 179-85 (Kagan, J., concurring).22
We join the many courts and commentators who have
concluded that, even after the Reed decision, a distinction
As noted in the text, the Reed decision did not involve the regulation or taxation of off-premises billboards. Clear Channel primarily
relies on a Sixth Circuit decision that extrapolated the holding in
Reed. That case concerned a Tennessee sign law that prohibited signage within a certain distance of a public roadway, but exempted from
that prohibition signs “located on the same premises as the activity
or property advertised.” Thomas v. Bright, 937 F.3d 721, 725 (6th Cir.
2019), cert. denied, 141 S.Ct. 194 (2020). The Sixth Circuit concluded
that the Tennessee law was not content neutral because it required
“Tennessee officials to assess the meaning and purpose of the sign’s
message in order to determine if the sign violated the Act.” Id. at 73033; see also Reagan National Advertising v. City of Austin, 972 F.3d
696 (5th Cir. 2020), petition for cert. filed, No. 20-1029 (Jan. 28, 2021)
(holding that sign code prohibiting digitization of off-premises signs
was content-based).
22

The Thomas decision affirmed a similar holding in the federal district court that has been characterized as an “outlier” in terms of its
assessment of Reed and the on-premises/off-premises distinction.
Note, Free Speech Doctrine After Reed v. Town of Gilbert, 129 Harv.
L. Rev. 1981, 1993 (2016). Moreover, the Sixth Circuit limited the
breadth of its decision, noting that “[t]here might be many formulations of an on/off-premises distinction that are content-neutral, but
the one before us is not one of them.” Thomas, 937 F.3d at 733. The
Tennessee law at issue directed officials to determine a sign’s “purpose” and enumerated criteria to determine whether that purpose
made it an on or off-premises sign. Id. at 725-26. The Ordinance in
this case does not contain similar directions or criteria concerning the
purpose or subject matter of a billboard.

34a
between on-premises signs and off-premises signs in a
regulatory or tax law does not discriminate on the basis of
content and therefore does not trigger heightened
scrutiny under the First Amendment. See, e.g., Adams
Outdoor Advertising LP v. Pennsylvania Department of
Transportation, 930 F.3d 199, 207 n.1 (3d Cir. 2019)
(noting that Reed’s concurring opinions by Justices Alito
and Kagan, “which received a total of six votes, both
indicated that on-premise sign regulations are content
neutral” and that strict scrutiny would not apply to
billboard regulation merely because they exempted onpremise signs); Geft Outdoor LLC v. Consolidated City of
Indianapolis & County of Marion, 187 F.Supp.3d 1002,
1017 n.2 (S.D. Ind. 2016) (noting that “at least six Justices
continue to believe that regulations that distinguish
between on-site and off-site signs are not content based
and therefore do not trigger strict scrutiny”); Citizens for
Free Speech, LLC v. County of Alameda, 114 F.Supp.3d
952, 968-71 (N.D. Cal. 2015) (noting that “onsite/offsite”
distinctions are “content-neutral under the First
Amendment’s free speech clause,” even after Reed); see
also Note, Free Speech Doctrine After Reed v. Town of
Gilbert, 129 Harv. L. Rev. 1981, 1993 n.82 (2016)
(“regulations distinguishing between on-premises and offpremises signs should probably be treated as contentneutral regulations of place as the very same sign is
treated differently only because of the location in which it
is placed”); S.L. Trevarthen & A.M. Hapner, The True
Impact of Reed v. Town of Gilbert on Sign Regulation, 49
Stetson L. Rev. 509, 533-34 (2020) (concluding that local
government may continue to regulate or prohibit offpremise billboards after Reed); cf. Lone Star Security &
Video, Inc. v. City of Los Angeles, 827 F.3d 1192, 1200 (9th
Cir. 2016) (holding that a city ordinance that distinguished
between billboards that “advertise” and all others “refers

35a
to the activity of displaying a message to the public, not to
any particular content” and was constitutional under
Reed).
4. Summary
An ordinance imposing a tax related to the sale of
advertising on billboards is indisputably within the City’s
taxing power and, under First Amendment precedent, is
entitled to a strong presumption of constitutionality.
Differential taxation of media is subject to heightened
scrutiny under the First Amendment when a tax
suppresses or threatens to suppress particular ideas or
viewpoints by (1) singling out the press, (2) targeting a
small group of speakers, or (3) discriminating on the basis
of the content of taxpayer speech. The Ordinance at issue
in this case does not do so and thus is not subject to
heightened scrutiny under the First Amendment.23 The
Ordinance clearly survives the application of a rational
basis test and, accordingly, is constitutional.
III.

CONCLUSION

For the reasons set forth above, we hold that the
Ordinance does not violate the First Amendment to the
federal Constitution or Article 40 of the Maryland
Declaration of Rights. The Tax Court properly upheld the
23
Notably, the courts that have considered First Amendment challenges to excise taxes based on the sale of advertising on off-premises
billboards have reached the same conclusion. See Lamar Advantage
GP Co., LLC v. City of Cincinnati, 155 N.E.3d 245 (Ohio Ct. App.
2020), appeal allowed, 154 N.E.3d 98 (Oct. 13, 2020); Adams Outdoor
Advertising, Ltd. v. Borough of Stroudsburg, 667 A.2d 21 (Pa.
Commw. Ct. 1995), appeal denied, 676 A.2d 1201 (May 30, 1996); see
also Free Speech, LLC v. City of Philadelphia, 884 A.2d 966 (Pa.
Commw. Ct. 2005) (affirming denial of preliminary injunction in First
Amendment challenge to billboard advertising excise tax on ground
that challenger had not shown likelihood of success on the merits).

36a
City’s decision to deny Clear Channel’s requests for tax
refunds.
JUDGMENT OF THE COURT OF SPECIAL
APPEALS AFFIRMED. COSTS TO BE PAID BY
THE PETITIONER.

37a
GETTY, J., dissenting:
[I]t is said, that a right to tax, in this case, implies a
right to destroy; that it is impossible to draw the line
of discrimination between a tax fairly laid for the
purposes of revenue, and one imposed for the purpose
of prohibition.
Chief Justice John Marshall
McCulloch v. Maryland, 17 U.S. 316, 376 (1819).
I respectfully dissent from the Majority’s conclusion
that Baltimore City’s (“the City”) excise tax (“the
Ordinance”) “on the privilege of exhibiting outdoor
advertising displays in the city” must only satisfy the low
threshold of rational basis review. Balt. City Code, art. 28
§ 29-2; see Maj. Slip Op. at 33-34. The City’s tax raises
constitutional concerns that should prompt more rigorous
judicial scrutiny. Departing from my colleague’s concise
and well-written analysis, I instead believe that billboards
are
a
constitutionally
protected
medium
of
communication and, thus, any legislation potentially
affecting the “speech” from this platform implicates free
expression concerns.
As Chief Justice John Marshall explained 200 years
ago, the “line of discrimination” is difficult to discern.
McCulloch, 17 U.S. at 376. The Tax Court concluded that
an excise tax imposed on the privilege of exhibiting
outdoor advertising displays is “a tax on the privilege of
continuing in business, not on exercising free speech.”
Clear Channel Outdoor, Inc. v. Dep’t of Fin. of Balt. City,
Appeal No. 16-MI-BA-0571 (Feb. 27, 2018), 2018 WL
1178952 at *3; see Maj. Slip Op. at 6-7. But how does one
distinguish between the “privilege” of being in the
business of speech and the speech itself?

38a
The Tax Court’s decision assumes that the act of
leasing billboard space does not contain sufficient
communicative elements to implicate the First
Amendment. However, allowing a tax on the “privilege”
of maintaining a speech platform necessary to convey
speech that falls within the ambit of the First Amendment
is an attempt to draw a line that runs contrary to prior
Supreme Court precedent. If the needle can be thread so
that the “privilege” of being in the speech business is
taxable, yet the speech is not, may local governments, or
the state, impose a tax specific to operating radio stations,
or printing newspapers, just for the “privilege” of owning
that speech platform? To what extent can a municipality
tax a provider of speech by distinguishing the speech
platform needed for them to convey the speech from the
speech that is being disseminated? And why is this
“privilege” defined as being outside the bounds of First
Amendment protection?1
The Tax Court also assumed, and the Majority agrees,
that the Ordinance does not “impose[] a burden on free
speech.” Clear Channel Outdoor, 2018 WL 1178952 at *3;
see Maj. Slip Op. at 33. Instead, I think we can assume
that billboard providers like Clear Channel will pass the
costs of this tax on to their customers—who are providing
the speech. The logic of the Tax Court confusingly, and
improperly, creates a blurry distinction between being in
1
If billboards are not considered speech platforms protected by the
First Amendment, what is to stop state regulations on the types of
messaging or speakers utilizing the medium? Certain political campaigns and candidates may lose a valuable means to interject their
messaging into the marketplace of ideas. If outdoor advertising is
protected by the First Amendment, but legislatures may impose
taxes that are not generally applicable but focused on a singular medium, are more traditional, sacred vehicles of free expression next in
line for governmental revenue raising measures?

39a
the business of conveying speech and the content of the
speech that is actually conveyed.
In light of this foggy logic in demarcating a standard,
I would find that the Ordinance is not “generally
applicable.” Instead, the Ordinance applies solely to one
class of speech platforms—“outdoor advertising
displays”—which ratchets our review to a higher bar of
scrutiny. The Ordinance’s application to off-premises, but
not on-premises, signage further winnows the tax’s focus
and presents a potential content-based distinction that is
blatantly contrary to the First Amendment. Deferring to
the City’s broad power to tax cannot wash away these
concerns. For this tax to be constitutionally permissible,
it must meet a more onerous standard of heightened
scrutiny.
This Court must acknowledge the potential for a tax to
adversely affect paramount constitutional rights, even if
that is not the intent of the legislative body, here the city
council, in enacting the tax. Indeed, the city council need
not intend to burden free speech by limiting speakers and
ideas in the marketplace for its enactments to cause that
result. The First Amendment protects against both
intentional and unintentional burdens on free speech,
which can only be achieved by scrutinizing the tax under
a heightened burden of review.
A. Any Regulation of Billboards Inherently
Implicates
Free
Expression
Concerns,
Prompting Heightened Scrutiny.
Billboards have both physical properties, subject to
regulations similar to other structures, and
communicative elements that enjoy First Amendment
protection. Accordingly, any regulation of billboards
inherently implicates free expression concerns,

40a
prompting heightened scrutiny. The combination of
physical construction and communicative expression form
the definitional elements of a “billboard.” See
Metromedia, Inc. v. City of San Diego, 453 U.S. 490, 52224 (1981) (Brennan, J., concurring). The City’s zoning
code recognizes this dual identity, defining “billboards”
by their physical location and their intended
communicative purpose. See Balt. City Code, art. 32 § 1303(g) (“‘Billboard’ means any sign that directs
attention[.]”). Further, billboards are a “well-established
medium of communication, used to convey a broad range
of different kinds of messages.” Metromedia, 453 U.S. at
501 (plurality opinion).
This Court’s decision in Maryland Pennysaver is
distinguishable from the Ordinance here. Maryland
Pennysaver Grp., Inc. v. Comptroller, 323 Md. 697 (1991).
Notably, the retail sales tax examined by the Court in that
case was extraordinarily broad and applied to mostly
everyone, except for newspapers. This is fundamentally
different than a tax that targets one industry or speaker.
Moreover, in finding that the pennysaver publication did
not fall within the “newspaper exception,” the Court
distinguished the pennysaver because of its
“overwhelming commercial speech content.” Id. at 714-15.
As explained in Metromedia, the speech disseminated on
billboards varies and encompasses a wide-ranging variety
of messages. 453 U.S. at 501 (plurality opinion). The
commercial speech disseminated in the pennysaver and
considered by this Court, which consisted almost entirely
of advertisements,2 has considerable differences to the
breadth of speech disseminated on billboards.
The Court in Maryland Pennysaver viewed four illustrative pennysavers in the record extract, totaling 249 pages. 323 Md. at 699-70.
Within those 249 pages, the Court noted that three half-pages were
2

41a
In evaluating the constitutionality of the Ordinance,
this Court should not overlook the role billboards serve in
the local media landscape, their ability to provide
alternative means of communication, and the public
interest the tax may serve compared to the public interest
it may hinder if access to this form of messaging is limited
by the tax’s economic burden. See Metromedia, 453 U.S.
at 557-58 (Burger, J., dissenting) (“The uniqueness of the
medium, the availability of alternative means of
communication, and the public interest the regulation
serves are important factors to be weighed[.]”).
Billboards hold a unique position within local media,
offering a platform for both advertisement and speech
that contributes to the public interest. As Clear Channel,
amicus curiae, and the record highlight, billboards convey
a broad array of messages, from commercial speech
advertising products, services, and attractions, to public
information delivering news, political speech, and public
awareness campaigns. See Metromedia, 453 U.S. at 501
(plurality opinion) (citation omitted).
Local and national voices alike gravitate towards the
medium, as the comparatively low cost of outdoor
advertising provides an affordable option for ideas and
speakers to enter the public discourse. See Dan Rodricks,
Mikulski’s Plea for Billboards, Balt. Sun (Nov. 1, 1991),
https://www.baltimoresun.com/news/bs-xpm-1991-11-01devoted to columns written by politicians serving around Maryland.
In viewing the May 18, 1983, Kent Island/Grasonville pennysaver, the
Court noted that it contained two-and-a-half-pages of “Community
News,” which “consist[ed] primarily of announcements of activities,
such as meetings, fundraisers, and social events . . . .” Id. at 699. The
Court also noted that the pennysaver included two pages each containing a chapter of a “serialized Western novel” that was available
for purchase from the publisher. Id.

42a
1991305147-story.html [https://perma.cc/HWF4-MTQA]
(quoting former United States Senator Barbara Mikulski
on her use of billboards in political campaigns: “I know
that billboards play an important role in political
campaigns. . . . I did not have big radio, big TV, but I sure
had big billboards”). Campaigns expressing controversial,
nontraditional, or marginalized views often utilize
billboards as speech platforms. In all, billboards are an
accessible medium that the non-incumbent may use to
challenge the status quo.
In our modern technology-driven society, billboards
are also a medium that expands the marketplace of ideas
in a world where consumers frequently seek information
from a concentrated bubble of sources. See, e.g., Amanda
Hess, How to Escape Your Political Bubble for a
Clearer View,
N.Y.
Times
(Mar.
3,
2017),
https://www.nytimes.com/2017/03/03/arts/the-battle-over
-your-political-bubble.html
[https://perma.cc/HW6N3X3L]. To this end, much has been made of our fractured
media and how such polarization affects what speech
reaches different audiences. For example, the ability to
seek out information and ideas in the echo chamber of
social media shows the arduous task of introducing new
information and ideas to an audience rapt by a
concentrated mass of digital sources. See, e.g., Steven L.
Johnson, Brent Kitchens, & Peter Gray, Facebook Serves
as an Echo Chamber, Especially for Conservatives.
Blame Its Algorithm, Wash. Post (Oct. 26, 2020),
https://www.washingtonpost.com/opinions/2020/10/26/fac
ebook-algorithm-conservativeliberal-extremes/ [https://
perma.cc/4H2V-9BSP]. Yet, billboards reach a plethora of
audiences and inject speech into the marketplace of ideas
without regard for the preferences of the viewer.

43a
The messages displayed on billboards “are constantly
before the eyes of observers on the street[]” and can “be
seen without the exercise of choice or volition,” thus
interjecting ideas into what is all too often a closed
conversation. Packer Corp. v. Utah, 285 U.S. 105, 110
(1932). The driver stuck in traffic or the pedestrian on the
sidewalk cannot help but read the content their gaze finds
on outdoor advertising. Such messaging has the potential
to enliven public discourse or sell a car, but in either case,
billboards contain communicative elements that entitle
them to protection under the First Amendment.
Inevitably any regulation of billboards will touch on
the medium’s communicative elements. See Metromedia,
453 U.S. at 502-03 (plurality opinion). Those First
Amendment concerns must be assessed. Id. (quoting
Linmark Assocs., Inc. v. Willingboro, 431 U.S. 85, 91
(1977)) (“[A] court may not escape the task of assessing
the First Amendment interest at stake and weighing it
against the public interest allegedly served by the
regulation.”). Even if the Ordinance is an excise tax on the
“privilege” of conducting Clear Channel’s business, when
that business is the dissemination of messaging, the tax
inherently implicates the First Amendment. See Clear
Channel Outdoor, Inc. v. Dir., Dep’t of Fin. of Balt. City,
244 Md. App. 304, 314-15 (2020).
Speech is protected even if it occurs on a platform that
is sold for profit. See Virginia State Bd. of Pharmacy v.
Virginia Citizens Consumer Council, Inc., 425 U.S. 748,
761-62 (1976) (“[W]e may assume that the advertiser’s
interest is a purely economic one. That hardly disqualifies
him from protection under the First Amendment.”).
Commercial speech clearly falls within the First

44a
Amendment’s protective cloak.3 Central Hudson Gas &
Elec. Corp. v. Public Serv. Comm’n, 447 U.S. 557, 562-63
(1980). A tax on the sale of display space on outdoor
advertising implicates both these constitutional concerns.
By not extending traditional First Amendment
protections to outdoor advertisers, we defy the Supreme
Court’s evolving understanding of who and what may
count as “media” or “speech,” and thus how constitutional
concerns with both have broadened. See Citizens United
v. Fed. Elec. Comm’n, 558 U.S. 310, 352 (2010)
(recognizing the blurred line between traditional media
and other platforms that may provide social and political
commentary alongside advancements of technology and
rejecting the proposition that the former inherently
enjoys constitutional protections greater than the latter).
Though rapid advancements in communications
technology may have hastened this “freedom of the press”
pluralism, the Supreme Court’s extension of First
Amendment protections to “every sort of publication
which affords a vehicle of information and opinion” is long
standing. Lovell v. Griffin, 303 U.S. 444, 451-52 (1938)
(“The liberty of the press is not confined to newspapers
and periodicals.”).
3
The Supreme Court adopted a four-part test to determine the validity of restrictions on commercial speech, distinguishing the process
from its analysis of “fully protected speech”:

(1) The First Amendment protects commercial speech only if that
speech concerns lawful activity and is not misleading. A restriction on otherwise protected commercial speech is valid only
if it (2) seeks to implement a substantial governmental interest,
(3) directly advances that interest, and (4) reaches no further
than necessary to accomplish the given objective.
Metromedia, 453 U.S. at 507 (1981) (plurality opinion) (citing Central
Hudson Gas & Elec. Corp., 447 U.S. at 563-66).

45a
A tax on billboard display space imposes an incidental
burden on speech, thus its constitutionality must be
evaluated, at the least, under an intermediate level of
scrutiny. See Turner Broad. Sys., Inc. v. FCC, 512 U.S.
622, 661-62 (1994). Taxing an outdoor advertiser’s display
space is akin to taxing the ink and paper used by
newspapers; both taxes target a medium’s means of
communication, and thus “impose[] some ‘burden’” on
speech. See Minneapolis Star & Tribune Co. v.
Minnesota Comm’r of Revenue, 460 U.S. 575, 577-78, 583
(1983). Imposing a tax on the revenue generated from the
sale of outdoor advertising space indirectly implicates the
ability to speak because these additional costs inevitably
will be passed through to customers seeking to utilize this
platform.
Because of these incidental First Amendment
concerns, the Ordinance’s burden on speech must be no
greater than is essential to further the alleged
government interest. See, e.g., Turner Broad. Sys., 512
U.S. at 662; Members of City Council of L.A. v. Taxpayers
for Vincent, 466 U.S. 789, 805 (1984). Taxation of
billboards is not per se unconstitutional, but like other
billboard regulations, it must be shown to further an
important government interest while infringing upon free
expression no further than required to achieve this
interest. See Metromedia, 453 U.S. at 502-03 (plurality
opinion); Donnelly Advert. Corp. v. City of Balt., 279 Md.
660, 668-69 (1977). Using this standard, this case should
be remanded to the Tax Court where the Ordinance must
be analyzed against a heightened burden of at least
intermediate scrutiny, as a court should evaluate any such
regulation on billboards.
In arguing against applying to the tax a heightened
burden of scrutiny, much was made, both in the City’s

46a
brief and at oral argument, of the potentially “absurd
result” of a hypothetical situation in which the City may
heavily regulate or even ban the location or construction
of billboards, yet not so easily tax these platforms. This is
a misguided dismissal of a court appropriately applying
the intermediate scrutiny warranted by the First
Amendment implications present in either hypothetical
regulation. There is nothing “absurd” about such
jurisprudence.
As “large, immobile, and permanent structures,”
billboards are subject to regulation “like other
structures.” Metromedia, 453 U.S. at 502 (plurality
opinion) (citation omitted). Such regulation stems from
the state’s police powers, often embodied in a
municipality’s zoning code. See Donnelly Advert. Corp.,
279 Md. at 671; see also Balt. City Code, art. 32 § 17-406.
But both the Supreme Court and this Court acknowledge
that these regulations affect a billboard’s communicative
aspects as well. Challenges to such laws demand an
accounting of such First Amendment concerns through
heightened scrutiny. See Metromedia, 453 U.S. at 502
(plurality opinion); Donnelly Advert. Corp., 279 Md. at
668-69.
For either regulation to be upheld—the hypothetical
zoning law or a tax like the one we assess sub judice—it
must (i) derive from a constitutionally recognized power
of the government, (ii) further a substantial or important
government interest (iii) that is “unrelated to the
suppression of free expression,” and (iv) the “incidental
restriction” on First Amendment rights must be “no
greater than is essential” to further the government’s
interest. Taxpayers for Vincent, 466 U.S. at 805 (quoting
United States v. O’Brien, 391 U.S. 367, 377 (1968)). Both
this Court’s and the Supreme Court’s precedent show that

47a
zoning regulations often fulfill these mandates. See
Metromedia, 453 U.S. at 509 (plurality opinion) (stating
legislative concerns about traffic hazards caused by
billboards presented legitimate interest unrelated to
suppressing speech and doing so as necessary to achieve
this end); Donnelly Advert. Corp., 279 Md. at 669, 671
(holding city’s police power extended to phase-out period
for billboards as part of larger “urban renewal projects”
that represented “an important government interest . . .
unrelated to the suppression of free expression and no
greater than essential”).
If the billboard tax falls to this heightened standard,
but a zoning law prevails, it is not an “absurd result.” It is
the court appropriately fulfilling its role of evaluating the
constitutionality of such a law within the context of how
that law burdens the First Amendment. See generally
Marbury v. Madison, 5 U.S. 137, 177 (1803) (“It is
emphatically the province and duty of the judicial
department to say what the law is. Those who apply the
rule to particular cases, must of necessity expound and
interpret that rule.”). Such an evaluation should utilize a
standard of scrutiny more rigorous than rational review.
This Court should respect its own precedent, and that of
the Supreme Court, and apply a heightened level of
scrutiny to laws affecting billboards.4 See, e.g., Taxpayers
for Vincent, 446 U.S. at 805; Donnelly Advert. Corp., 279
Md. at 668-69.

Using the standard set by the Supreme Court for regulation that
produces an indirect burden on free speech, intermediate scrutiny is
the appropriate heightened burden to apply. See Taxpayers for Vincent, 466 U.S. at 804-05 (1984); Donnelly Advert. Corp., 279 Md. at
671.
4

48a
B. The Ordinance Is Not Generally Applicable and
Applies a Tax to One Class of Speakers Utilizing
One
Medium,
Therefore
Warranting
Heightened Scrutiny.
The Ordinance is not generally applicable, but instead
applies a tax to one class of speakers utilizing one
medium—such taxes targeted at media platforms
warrant heightened scrutiny. “It is beyond dispute” that
media entities are subject to “generally applicable
economic regulations without creating constitutional
problems.” Minneapolis Star & Tribune, 460 U.S. at 581.
But it is beyond the pale for the government to impose
such economic regulations upon just the media or certain
speakers therein. See Arcara v. Cloud Books, Inc., 478
U.S. 697, 704 (1986) (citing Minneapolis Star & Tribune,
460 U.S. at 582-83) (“We imposed a greater burden of
justification on the State even though the tax was imposed
upon a nonexpressive activity, since the burden of the tax
inevitably fell disproportionately—in fact, almost
exclusively—upon the shoulders of newspapers[.]”).
The Ordinance is just such a selectively applied tax.
See Minneapolis Star & Tribune, 460 U.S. at 585. It is not
“generally applicable.” Leathers vs. Medlock, 499 U.S.
439, 447 (1991) (“[A] State may impose on the [media] a
generally applicable tax”).5 The tax is “single in kind” in
The City asserts that Leathers controls the Court’s assessment of
such taxes selectively applied to certain media. See Maj. Slip Op. at
22-23, 27; Leathers, 499 U.S. at 453. But Baltimore’s Ordinance may
be distinguished from the sales tax in Leathers in meaningful ways.
Leathers concerned a “generally applicable” sales tax affecting the
gross receipts of cable companies while otherwise exempting traditional members of “the press.” See 499 U.S. at 441-42. The City relies
too heavily on the Leathers Court’s affirmation that a general tax may
apply to the media, in whole or in part. See id. at 450-53. The Ordinance was never a general tax which exempted certain media but not
5

49a
that it applies solely to billboards as a medium. See
Grosjean v. Am. Press Co., 297 U.S. 233, 250 (1936); see
also Balt. City Code, art. 28 §§ 29-1(d), 29-2. In so doing,
it takes aim at a specific sub-segment of constitutionally
protected speakers. By “appl[ying] only to a single
constituency,” the Ordinance potentially insulates itself
from larger political accountability. Leathers, 499 U.S. at
445-46. This narrow focus can operate like a censorial
cudgel. See Minneapolis Star & Tribune, 460 U.S. at 585.
Even if the government’s intention is not to censor speech,
such may be the effect when the extra burden of not
otherwise general taxes is applied. See id. at 585, 588. No
malicious legislative intent to curb speech need be found
to prompt these constitutional concerns. See id. at 592
(“Illicit legislative intent is not the sine qua non of a
violation of the First Amendment.”). This differential
taxation “places such a burden on the interests protected
by the First Amendment that we cannot countenance this
treatment unless the State asserts a counterbalancing
interest of compelling importance that it cannot achieve
without differential taxation.” Id. at 585.
The Ordinance’s application to only certain speakers
within the category of outdoor advertisers augments our
constitutional concerns. That the tax singles out Clear
Channel as a speaker is not constitutionally offensive, as
the company’s local monopoly makes this fact an
incidental result. Cf. Grosjean, 297 U.S. at 250-51; see
generally E. 350 (discussing Clear Channel owning nearly
ninety-five percent of the signage affected by the
billboards. It specifically applies only to billboards. See Balt. City
Code, art. 28 § 29-2. At best for the City’s position, the Ordinance is
more akin to must-carry provisions that apply only to cable companies and were thus reviewed under intermediate scrutiny. Turner
Broad. Sys., 512 U.S. at 662-63.

50a
Ordinance). But Baltimore’s billboard tax applies solely to
companies controlling and selling outdoor advertising
display space, and just to those “off-premises” signs
larger than ten square feet. See Balt. City Code, art. 28
§ 29-1(b) & (d).
By not applying to smaller signage, or that which is
“on-premises,” the Ordinance treads perilously close to
distinguishing among like speakers based on their content
or dissemination. See Leathers, 499 U.S. at 447-49. Such a
tax may be doubly violative of the First Amendment by
applying to a subset of a subset of speakers, and making
this distinction based on the messages conveyed. See id.
at 448-49 (discussing Arkansas Writers’ Project, Inc. v.
Ragland, 481 U.S. 221, 229 (1987)). When a court finds
content-based distinctions in legislation affecting speech,
the law must overcome the heightened burden of strict
scrutiny. See Reed v. Town of Gilbert, 576 U.S. 155, 17071 (2015).
The City inherently establishes a content-based
distinction by defining an “outdoor advertising display” as
that which “directs attention to a business, commodity,
service, event, or other activity that is: sold, offered, or
conducted somewhere other than on the premises on
which the display is made.” Balt. City Code, art. 28 § 291(d)(i) (cleaned up). It categorizes the class of billboards
to which the tax applies based on whether they convey a
message related to the property to which they are affixed,
or to happenings elsewhere. See id. Such content-based
distinctions must overcome the heightened burden of
strict scrutiny. See Reed, 576 U.S. at 170-71. Though the
Supreme Court’s plurality holding in Metromedia
permitted such a distinction in the context of zoning
regulations, it did so after assessing San Diego’s

51a
regulation under a heightened burden
intermediate scrutiny. See 453 U.S. at 511-12.

akin

to

This Court should reverse the Court of Special
Appeals and, upon remand, require the City to meet the
heightened burden of strict scrutiny for taxes singularly
focused on the media or individual classes of media
therein. See Minneapolis Star & Tribune, 460 U.S at. at
592-93.
CONCLUSION
The Constitution demands a more strenuous review of
regulations, taxation, and related legislation that
implicates the First Amendment, directly or indirectly.
The First Amendment demands of us a stauncher defense
for constitutionally protected mediums of communication.
While the line of demarcation may be difficult to discern,
here the ordinance clearly requires review at a higher
standard of scrutiny. It is for these reasons that I
respectfully dissent.

52a
APPENDIX B
IN THE COURT OF SPECIAL APPEALS
OF MARYLAND
No. 2910
September Term, 2018

Case No. 117025007

CLEAR CHANNEL OUTDOOR, INC.
v.
DIRECTOR, DEPARTMENT OF FINANCE OF
BALTIMORE CITY

Filed: January 29, 2020
Berger,
Beachley,
Wells,
JJ.

Opinion by Berger, J.

53a

OPINION
This appeal involves a constitutional challenge to
Baltimore City Ordinance 13-139 (“the Ordinance”),
which imposes an excise tax (“the Tax”) on outdoor
advertising displays. Balt. City Code Art. 28, § 29. Clear
Channel Outdoor, Inc. (“Clear Channel”) owns or
operates hundreds of billboards subject to the Tax. It
initially challenged the Ordinance in the United States
District Court for the District of Maryland, claiming that
the Ordinance violated its First and Fourteenth
Amendment rights. The District Court granted summary
judgment in favor of Baltimore City, holding that the
Ordinance was a tax, and therefore, it lacked subject
matter jurisdiction to determine the merits of the claim.
Clear Channel subsequently paid the Tax under
protest. It then filed a refund request with the Director,
Department of Finance of Baltimore City (“the City”),
which was denied. Clear Channel sought review of the
denial in the Maryland Tax Court, challenging the
constitutionality of the tax on First and Fourteenth
Amendment grounds, as well as Article 40 of the
Maryland Constitution. The Tax Court affirmed the City’s
denial of the refund request. Clear Channel filed a petition
for judicial review in the Circuit Court for Baltimore City,
which affirmed the Tax Court’s decision. On appeal, Clear
Channel presents two questions for our review, which we
rephrase as follows:1

1

Clear Channel’s questions, as presented are:
1. Is the operation of billboards that carry the commercial and
non-commercial messages of third parties and the billboards’

54a

1. Whether the operation of billboards is protected by
the First Amendment and Article 40, thereby
subjecting its taxation to heightened scrutiny.
2. Whether the Ordinance targets a specific platform
for speech and a small group of speakers, thereby
subjecting it to heightened scrutiny.
As we shall explain, we hold that the Ordinance does
not implicate Clear Channel’s right to freedom of speech.
Accordingly, we affirm.
FACTS AND PROCEEDINGS
In 2013, Ordinance 13-139 was signed into law,
imposing an excise tax “on the privilege of exhibiting
outdoor advertising displays in the City.” Balt. City Code
Art. 28, § 29-2. The tax is levied upon advertising hosts,
which includes “a person who: (1) owns or controls a
billboard, posterboard, or other sign; and (2) charges fees
for its use as an outdoor advertising display.” Id. An
outdoor advertising display is defined as:
an outdoor display of a 10 square foot or larger image
or message that directs attention to a business,
commodity, service, event, or other activity that is:
(i) sold, offered, or conducted somewhere other than
on the premises on which the display is made; and (ii)
owner protected under the First Amendment and Article 40, subjecting its taxation to heightened scrutiny?
2. Does a targeted tax on four entities engaged in protected
speech violate the First Amendment and Article 40 where, as
here, the government interest served by the tax is insufficient to
justify the burden on speech as a matter of law and, in any event,
the tax is not narrowly tailored to burden no more speech than
necessary to advance that interest?

55a
sold, offered, or conducted on the premises only
incidentally if at all.
Id. at § 29-2(d). The Tax is assessed based upon the size
of the display and whether it is an electronic display as
follows:
(a) In general.
The annual amount of the tax imposed is at the
following rates per square foot of advertising
imagery:
(1) $15 per square foot of advertising
imagery for an electronic outdoor
advertising display that changes images
more than once a day; and
(2) $5 per square foot of advertising
imagery for any other outdoor advertising
display.
(b) Tax for a single space.
If a single space is used for multiple outdoor
advertising displays during the course of one
reporting period, the advertising host who makes
that space available:
(1) must pay the annual tax as if the display
that would generate the highest tax liability
had been in place for the entire year; and
(2) need not pay an additional tax for any
other displays in that space.
Id. at §29-3. Each advertising host must file an annual
report with the Finance Director specifying the number
of advertising spaces it made available for the exhibition

56a
of advertising displays, and the location and size of each
display.2 Id. at §29-5.
Although there are three other groups that own or
operate billboards in Baltimore, Clear Channel owns or
operates the majority, and therefore, bears the majority
of the Tax’s burden. Clear Channel is assessed $1,500
annually when it charges third parties to use a billboard
measuring 12 feet by 25 feet, and $3,360 annually when it
charges third parties to use an electronic billboard,
measuring 14 feet by 48 feet.3
The bill file that was introduced into evidence before
the Tax Court explains the City’s motive for enacting the
Ordinance. The Ordinance, which was enacted as part of
a ten-year financial plan for Baltimore, is purely a revenue
raising measure. The City sought to diversify its revenue
portfolio in order to lower property tax rates, increase
infrastructure investment, and better manage the City’s
pension and retiree healthcare liabilities. The Tax on
outdoor advertising displays was specifically enacted to
help protect the arts and culture funding from further
cuts. Further, the City’s budget director testified that the
revenues generated from the tax are placed into the City’s
General Fund.
Clear Channel initially challenged the Ordinance in
the United States District Court for the District of
Maryland in 2013. See Clear Channel Outdoor, Inc. v.
Mayor & City Council of Baltimore, 153 F. Supp. 3d 865
(D. Md. 2015). In its Complaint for Declaratory and
Notably, the City imposes various other taxes and fees, including
a telecommunications tax, a parking tax, a pole fee, and an energy tax.
See Balt. City Code Art. 28.
2

Electronic billboards in Baltimore City are able to display up to
six advertisements per minute.
3

57a
Injunctive Relief, Clear Channel argued that Ordinance
13-139 violated its right to freedom of speech under the
First and Fourteenth Amendments. Id. at 868. The City
filed a motion to dismiss for failure to state a claim and
lack of subject matter jurisdiction under the Tax
Injunction Act (“TIA”), 28 U.S.C. § 1341 (2012), arguing
that the Ordinance was a Tax, not a fee. Id.
The TIA “provides that federal courts lack subjectmatter jurisdiction to enjoin, suspend or restrain the
assessment, levy or collection of any tax under State law
where a plain, speedy and efficient remedy may be had in
the courts of such State.” Id. at 870 (citing 28 U.S.C.
§ 1341) (quotations omitted). The Court denied the motion
to dismiss in 2014, explaining that at that stage of the
litigation, “the ordinance [was] a fee, not a tax, for the
purposes of the TIA.” Id. at 868. The City filed a motion
for reconsideration, which the court denied as well. Id.
Thereafter, Clear Channel filed a motion for summary
judgment and the City filed a cross-motion for summary
judgment. Id. at 868-69. The Court granted summary
judgment in favor of the City, holding that the Ordinance
was a “tax” under the TIA, and therefore, it lacked subject
matter jurisdiction to determine the merits of the claim.
Id. at 875.
Clear Channel subsequently paid the Tax as owed for
the 2014 and 2015 fiscal years, pursuant to the Ordinance.
In February, 2016, Clear Channel demanded a refund of
its 2014 and 2015 payments of the Tax and a suspension of
the
levy
for
subsequent
years,
citing
its
unconstitutionality under the First and Fourteenth
Amendments. The City denied the request, explaining
that the Tax was imposed to raise revenue and that it was
subject to rational basis scrutiny. In July, 2016, Clear
Channel paid its 2016 Tax Payment pursuant to the

58a
Ordinance and submitted a refund request that day. The
City again denied the request. Clear Channel appealed
the denial in the Maryland Tax Court, challenging the
constitutionality of the Ordinance.
Before the Tax Court, Clear Channel argued that
outdoor advertising is a constitutionally protected
medium of speech under the First and Fourteenth
Amendment and Article 40 of the Maryland Declaration
of Rights. Clear Channel further contended that the Tax
unconstitutionally restricts that speech. It argued,
therefore, that heightened scrutiny applied. Clear
Channel also averred that the Tax targeted a small group
of speakers on the basis of their participation in such
speech, and therefore, strict scrutiny applied. The City
maintained that as an excise tax, the Tax neither
implicates nor burdens the First Amendment and that the
Ordinance was simply a tax on the privilege to charge
fees.
On February 27, 2018, the Tax Court issued a
Memorandum and Order affirming the City’s denial of
Clear Channel’s refund requests for the fiscal years 2014,
2015, and 2016. In rejecting Clear Channel’s
constitutional contentions, the Tax Court focused on the
taxing power of the City. It found that “[a]n excise tax
imposed on the privilege of exhibiting outdoor advertising
displays is a tax on the privilege of continuing in business,
not on exercising free speech,” and that a tax on such a
business, is “not violative of [Clear Channel’s] rights to
free speech.” Finding that the First Amendment was not
implicated, the Tax Court concluded that the City had a
rational basis for enacting the Tax.
Clear Channel sought judicial review of the Tax
Court’s decision in the Circuit Court for Baltimore City.
The circuit court found that the Tax Court’s decision was

59a
correct as a matter of law and that it was supported by the
substantial evidence from the record. It, therefore,
affirmed the Tax Court’s decision. This appeal follows.
STANDARD OF REVIEW
“Because the Tax Court is an administrative agency,
its decisions are reviewed under the same appellate
standards generally applied to agency decisions.”
Comptroller of Treasury v. Johns Hopkins Univ., 186
Md. App. 169, 181(2009). “[W]e look through the decision
of the Circuit Court and evaluate directly the conclusions
reached by the Tax Court.” Green v. Church of Jesus
Christ of Latter-Day Saints, 430 Md. 119, 132 (2013). This
Court gives “great deference to the Tax Court’s factfinding.” Zorzit v. Comptroller, 225 Md. App. 158, 169
(2015). “[W]here the Tax Court’s decision is based on a
factual determination, and there is no error of law, the
reviewing court may not reverse the Tax Court’s order if
substantial evidence of record supports the agency’s
decision.” Supervisor of Assessments of Anne Arundel
Cty. v. Hartge Yacht Yard, Inc., 379 Md. 452, 461 (2004).
We review the Tax Court’s decisions of law de novo.
Johns Hopkins Univ., supra, 186 Md. App. at 181-82.
Even so, “an administrative agency’s interpretation and
application of the statute which the agency administers
should ordinarily be given considerable weight by
reviewing courts.” Id. at 182 (quoting Md. Aviation
Admin. v. Noland, 386 Md. 556, 571 (2005)). Moreover,
“recognizing that the agency’s decision is prima facie
correct and presumed valid, we must review the agency’s
decision in the light most favorable to it.” Comptroller of
the Treasury v. Citicorp Int’l Commc’ns, Inc., 389 Md.
156, 163 (2005) (citations and quotations omitted). As this
case involves the constitutionality of an ordinance, we

60a
review the Tax Court’s decision de novo. See, e.g., Schisler
v. State, 394 Md. 519, 536 (2006).
DISCUSSION
I.

THE ORDINANCE IS A VALID EXCISE TAX
AND DOES NOT IMPLICATE THE FIRST
AMENDMENT.

Clear Channel first argues that the Ordinance
unconstitutionally burdens billboard speech, which is
protected by the First Amendment and Article 40 of the
Maryland Constitution.4 The Ordinance, therefore, must
be analyzed under strict scrutiny instead of review under
a rational basis standard. The City does not disagree that
The First Amendment of the United States Constitution provides
that Congress shall make no law “abridging the freedom of speech, or
of the press.” Article 40 of the Maryland Constitution provides that
“[t]hat the liberty of the press ought to be inviolably preserved; that
every citizen of the State ought to be allowed to speak, write and publish his sentiments on all subjects, being responsible for the abuse of
that privilege.”
4

The First Amendment and Article 40 were written in response to
similar concerns and to provide similar protections, but are capable
of divergent interpretations. See, e.g., Pack Shack, Inc. v. Howard
County, 377 Md. 55, 64 n.3 (2003). See also Matthew S. Fuchs, Free
Exercise of Speech in Shopping Malls: Bases That Support an Independent Interpretation of Article 40 of the Maryland Declaration of
Rights, 69 Alb. L. Rev. 449, 471-72 (2006) (“Maryland courts have indeed interpreted Article 40 more broadly than the federal counterpart.”); Anthony W. Kraus, Beyond the First Amendment: What the
Evolution of Maryland’s Constitutional Free-Speech Guarantee
Shows About Its Intended Breadth, 47 U. Balt. L.F. 83, 84 (2017)
(“Many Maryland cases … not[e] that state and federal free-speech
rights are viewed as equivalents “in general” or “ordinarily,” but
leav[e] open the implicit possibility that it may not always be so.”).
Here, however, Clear Channel has not offered us any basis to interpret Article 40 differently or more broadly than the First Amendment.

61a
the speech displayed on Clear Channel’s billboards is
entitled to some level of First Amendment protection. It
maintains, however, that the Ordinance is a validly
enacted excise tax on Clear Channel’s privilege to
continue in business in Baltimore City. Clear Channel
displays the message of the third party, and therefore, a
tax on its business does not implicate the First
Amendment. We agree with the City and explain.
The City has the “power to tax to the same extent as
the State of Maryland has or could exercise said power
within the limits of Baltimore City as a part of its general
taxing power.” Balt. City Charter, Art. II, § 40. Indeed,
the taxing power of the City is broad. Am. Nat. Bldg. &
Loan Ass’n v. City of Baltimore, 245 Md. 23, 30 (1966).
Moreover, “a strong presumption exists in favor of the
constitutionality of legislative enactments,” including
revenue raising measures such as the tax at issue here.
Weaver v. Prince George’s Cty., 281 Md. 349, 355-56
(1977). The Supreme Court has recognized this
presumption even in the First Amendment context. See
Leathers v. Medlock, 499 U.S. 439, 451 (1991).
The Baltimore City Council classified the Outdoor
Advertising Tax as an excise. Balt. City Code Art. 28, § 292. An excise is “a tax imposed upon the performance of an
act, the engaging in an occupation, or the enjoyment of a
privilege.” Weaver, supra, 281 Md. at 357. “Indeed, an
excise is said to embrace every form of taxation that is not
a burden directly imposed on persons or property.” Id. at
357. “[A] tax on the use of property, as distinguished from
a tax based on ownership exclusively, is in the nature of
an excise.” Id. at 358-59 (emphasis added).
Here, the City has imposed an excise tax on the
privilege to charge others a fee to use billboard space. The
Tax Court correctly concluded that the taxation of Clear

62a
Channel’s business privileges lacks “sufficient
communicative elements” for the First Amendment to
come “into play.”5 Clear Channel charges third parties a
fee to use their property and then displays the third
party’s message. Although the advertisements and
messages placed on the billboards may be entitled to First
Amendment protection, Clear Channel’s privilege to
receive financial compensation for displaying those
messages is not. See Virginia v. Black, 538 U.S. 343, 358
(2003) (“The First Amendment affords protection to
symbolic or expressive conduct as well as to actual
speech.”). Clear Channel’s economic activity is not
expressive or communicative. We, therefore, agree with
the City that “[t]he mere fact that billboards are a medium
of communication does not transform a tax on the sale of
billboard space into a regulation of speech.” (Emphasis in
original).
In support of its argument that billboard speech is
protected by the First Amendment, Clear Channel relies
on Metromedia, Inc. v. City of San Diego, 453 U.S. 490
(1981). Metromedia, however, involved an ordinance
which prohibited outdoor advertising displays. Id. at 503.
The ordinance banned commercial advertising on
billboards, unless within a specified exception, and certain
noncommercial advertisements. Id. at 503. The ordinance
in Metromedia was a content-based regulation of the
speech and expression placed on billboards. The Court,
therefore, focused its analysis on the levels of First
Amendment protection afforded to commercial speech
We note that Clear Channel directs several of its arguments in
connection with the opinion issued by the circuit court. We, however,
do not review the decision of the circuit court, but look through the
circuit court’s actions and instead review the decision of the Tax
Court directly.
5

63a
and noncommercial speech. Id. at 504-21. The Baltimore
City Ordinance at issue here, however, does not regulate
the content placed on Clear Channel’s billboards.
Certainly, as was the case in Metromedia, it does not seek
to completely eliminate billboards and certain content
placed on them.
Critically, the Tax Court noted that when Clear
Channel charges a fee to third parties, “[p]etitioner does
not express or say anything; it only sells space to
advertisers who say things.” We agree with the reasoning
of the Tax Court. We acknowledge, however, that Clear
Channel occasionally displays its own message. The Tax,
however, is only assessed when Clear Channel charges
fees to another.
We further recognize that this Ordinance is content
neutral.6 The Tax is applicable whenever an outdoor
Clear Channel cites to Reed v. Town of Gilbert, 135 S. Ct. 2218
(2015) and Thomas v. Bright, 937 F.3d 721 (6th Cir. 2019) to support
its assertion that the Ordinance is content-based. In our view, these
cases are distinguishable from the ordinance in this case. The regulation in Reed exempted three categories of signs from a permit requirement, and thus, was content-based on its face, subjecting it to
strict scrutiny. Reed, supra, 135 S. Ct. at 2227. In rejecting the lower
court’s analysis of the regulation as content-neutral, the Supreme
Court held that regulations that are facially content-based are “subject to strict scrutiny regardless of the government’s benign motive,
content-neutral justification, or lack of animus toward the ideas contained in the regulated speech.” Id. at 2228 (quotations omitted). As
Clear Channel points out, Reed holds that a law is content based if it
“draws distinctions based on the message” or “applies to particular
speech because of the topic discussed.” Id. at 2227. As we have noted,
however, the Tax at issue applies regardless of the message it displays or topic it covers.
6

In Thomas, Tennessee exempted on-premise signs from an outdoor signage permit requirement. Thomas, supra, 937 F.3d at 730.
The regulation required that exempted signs “be located on the same

64a
advertiser charges a third party to use its space,
regardless of the content that is displayed or who paid
Clear Channel to display it. Indeed, the tax applies,
regardless of whether the advertising promotes coffee
from Starbucks, charity for eleemosynary institutions, or
other similar types of advertising. Moreover, the tax is
only triggered when an advertising host charges third
parties a fee. If an advertising host seeks to publish its
own speech on its own billboard, the tax is not triggered.
Accordingly, we hold, that the outdoor advertising tax is a
valid excise tax enacted within the City’s taxing powers on
the privilege to do business, and that it does not implicate
the First Amendment.7
Inasmuch as the Ordinance does not infringe on Clear
Channel’s First Amendment rights, it must only survive
under a rational basis review. See Ysursa v. Pocatello
Educ. Ass’n, 555 U.S. 353, 359 (2009). Under this review,
“a legislative classification will pass constitutional muster
so long as it is rationally related to a legitimate
premises as the activity” and “have as its purpose the identification
of the activity, products, or services offered on that same premises.”
Id. (quotations and alterations omitted). The Court held that the regulation was content-based because of the “purpose” component of the
regulation. Id. A State official was required to “assess the meaning
and purpose of the sign’s message” to determine if the on-premise
exception applied. Id. The Court determined that there was no way
to do so without “understanding the content of the message.” Id.
Here, the Ordinance imposes no such “purpose” requirement in the
definition of an outdoor advertising display, and no City official assesses the meaning or purpose of a billboard.
7
In light of our holding that the Ordinance does not implicate the
First Amendment, we need not address Clear Channel’s assertion
that the First Amendment protects billboard speech and those who
publish it. As we have explained, the tax is not targeted at the third
parties that ultimately display their speech on Clear Channel’s billboards.

65a
governmental interest.” Tyler v. City of Coll. Park, 415
Md. 475, 501 (2010). Moreover, “a statute reviewed under
the rational basis test enjoys a strong presumption of
constitutionality.” State v. Phillips, 210 Md. App. 239, 274
(2013) (quoting Whiting-Turner Contracting Co. v.
Coupard, 304 Md. 340, 352 (1985)). Clearly, Baltimore
City has a legitimate governmental interest in raising
revenue, particularly for the purpose of alleviating the
burden on Baltimore City taxpayers. Moreover, the
Ordinance is rationally related to that interest because
the Tax imposed by the Ordinance actually raises
revenue, which is placed directly into the City’s General
Fund. We hold, therefore, that the Ordinance satisfies the
rational basis test.
II. THE ORDINANCE IS UNLIKE THOSE THAT
THE
SUPREME
COURT
HAS
HELD
UNCONSTITUTIONAL UNDER THE FIRST
AMENDMENT.
Even, assuming arguendo, that the tax implicates the
First Amendment, it is vastly different from the other
taxes the Supreme Court has struck down on First
Amendment grounds. See Leathers, supra, 499 U.S. 439;
Arkansas Writers’ Project, Inc. v. Ragland, 481 U.S. 221
(1987); Minneapolis Star & Tribune Co. v. Minnesota
Comm’r of Revenue, 460 U.S. 575 (1983); Grosjean v.
American Press Co., 297 U.S. 233 (1936). Critically, each
of the taxes that have been stricken involved freedom of
the press and a concern that the taxes would serve as a
way for the government to censor “critical information
and opinion[s],” published by the press. Leathers, supra,
499 U.S. at 447. The Ordinance here presents no such

66a
concern of censoring particular viewpoints or ideas.8 It
does not target a particular speaker or message; it merely
taxes the privilege of doing business in the City.
Grosjean, the earliest Supreme Court case on which
Clear Channel relies, involved a Louisiana law that
targeted newspapers with weekly circulations above
20,000 copies per week and subjected the papers to a 2%
tax on gross receipts from advertising. Grosjean, supra,
297 U.S. at 240. Thus, only newspapers reaching larger
audiences were targeted. Id. at 240-41. The Grosjean
Court discussed the history and purpose of the First
Amendment and taxes imposed on the press before the
First Amendment was enacted. Id. at 245-50. Such taxes
were imposed as a way for the government to limit
information disseminated to the public. Id. The Court held
that the tax at issue was “a deliberate and calculated
device in the guise of a tax to limit the circulation of
information to which the public is entitled in virtue of the
constitutional guaranties.” Id. at 250.
Notably, the circulation of a newspaper is quite
different than a billboard. As billboards are non-moveable
property, the extent of the circulation of the information
it displays is based on its location. The billboard Tax,
however, is levied upon all off-premise billboard owners,
no matter where the signs are located or the size of the
population who view the displays. It does not limit the
8
Clear Channel points to one example of alleged censorship by the
City. In that instance, Clear Channel displayed a sign commissioned
by the Baltimore police and firefighter unions in 2010, which criticized
the City. The record before the Tax Court is unclear and the Tax
Court did not address this lone example in its comprehensive Memorandum and Order. Notably, this one instance occurred three years
before the tax was implemented. Accordingly, any concerns about alleged censorship are completely unrelated to the Tax at issue.

67a
volume of information displayed, nor does it limit the
audience that the information may reach.
Clear Channel’s second argument as to why the
Ordinance should be analyzed under strict scrutiny is that
it targets a platform for speech and a small group of
speakers within that platform. In support of its argument,
Clear Channel relies on Minneapolis Star, supra, 460
U.S. 575. Minneapolis Star involved a special use tax on
the paper and ink used in publications. Id. at 578. The tax
provided an exemption for the first $100,000, thus,
providing exemptions only for smaller newspapers with
less wide-spread circulation. Id. The Court found the tax
unconstitutional because it singled out the press and
further, that it targeted only a small group of newspapers
due to the exemption provision. Id. at 591. Minneapolis
Star is distinguishable for several reasons. First, Clear
Channel is not akin to a newspaper, which publishes its
own thoughts and ideas. Second, Clear Channel sells
space that it owns to third parties that may display their
own message.
Critically, as the Tax Court readily observed, the tax
here is not measured based on the extent of the circulation
of the message that is displayed, only on the size and
technology of the billboard. Further, the ordinance does
not target a small group of individuals within a particular
group. All off-premise billboard owners and operators are
assessed the tax based on the dimensions of their
billboards. The tax singles out no particular group of
billboard owners while exempting others.9
9
The Ordinance does not apply to signs on the property of a business, which are vastly different from billboards as defined in Balt.
City Code Art. 28 § 29-2. Therefore, Clear Channel’s attempt to group
itself with all types of signs in the City is unavailing.

68a
Following Minneapolis Star, the Supreme Court
addressed a challenge to a sales tax in Arkansas Writers’
Project, 481 U.S. 221. Arkansas imposed a sales tax on
receipts from sales of tangible personal property. Id. at
244. Exemptions were provided for newspapers and
religious, professional, trade, and sports magazines. Id.
Arkansas Writer’s Project published a general interest
monthly magazine, which included a variety of subjects,
including sports and religion, however, was required to
pay the sales tax. Id. The Court held that the tax was
unconstitutional for two reasons. First, it targeted a small
group within the press, as in Minneapolis Star, because
it was not evenly applied to all magazines. Id. at 229.
Second, the Court held that the tax included an even
“more disturbing use of selective taxation than
Minneapolis Star, because the basis on which Arkansas
differentiates between magazines is particularly
repugnant to First Amendment principles: a magazine’s
tax status depends entirely on its content.” Id. (emphasis
in original).
The City Ordinance at issue in this case clearly does
not single out a small group within the press.
Nevertheless, even if the business of advertising displays
qualifies as a press activity, the tax does not discriminate
within a class as did the invalidated taxes in Grosjean,
Minneapolis Star, and Arkansas Writers’ Project.
Indeed, the tax applies evenly to all display owners who
charge for the use of their outdoor displays. Further, the
Ordinance clearly does not differentiate based on the
content of the billboard display.
In Leathers, supra, 499 U.S. at 447, the Supreme
Court addressed each of its prior holdings involving First

69a
Amendment challenges to taxes.10 The Court upheld the
tax in Leathers, which exempted or excluded newspapers,
magazines, and satellite broadcast services. Cable
television services, however, were subject to the tax. Id.
at 442. The Court made clear that differential taxation of
certain media “does not by itself, however, raise First
Amendment concerns,” and is suspect only in certain
circumstances. Id. at 444. Based on its previous holdings,
the Court articulated three ways that a tax will be
invalidated under the First Amendment:
These cases demonstrate that differential taxation of
First Amendment speakers is constitutionally suspect
when it threatens to suppress the expression of
particular ideas or viewpoints. Absent a compelling
justification, the government may not exercise its
taxing power to single out the press. The press plays a
unique role as a check on government abuse, and a tax
limited to the press raises concerns about censorship
of critical information and opinion. A tax is also
suspect if it targets a small group of speakers. Again,
the fear is censorship of particular ideas or viewpoints.
At oral argument, Clear Channel relied heavily on City of Baltimore v. A.S. Abell Co., 218 Md. 273 (1958) for the proposition that the
Tax must be struck down because it is targeted. A.S. Abell involved a
challenge to two different taxes on advertising space and time, by
newspaper publishers, radio and television broadcasters, billboard
operators, and the purchasers of advertising. A.S. Abell, supra, 218
Md. at 278. The Court addressed the constitutionality of the taxes as
they applied to newspaper publishers and radio and television broadcasters. Id. at 280-89. Although the Court invalidated the tax as a
whole, it did not invalidate the tax as it applied to billboard operators
and the purchasers of advertising on First Amendment grounds. Id.
at 289. Moreover, A.S. Abell predates the guidance provided by the
Supreme Court in Minneapolis Star, Arkansas Writers’ Project, and,
most recently, in Leathers.
10

70a
Finally, for reasons that are obvious, a tax will trigger
heightened scrutiny under the First Amendment if it
discriminates on the basis of the content of taxpayer
speech.
Id. at 447 (citations omitted). To be struck down on First
Amendment grounds, a tax must, therefore, threaten “to
suppress the expression of particular ideas or
viewpoints,” target “a small group of speakers,” or
discriminate “on the basis of the content of taxpayer
speech.” As we have explained, the excise tax in Baltimore
City Ordinance 13-139 on outdoor advertising displays
falls into none of these three categories.
The Ordinance at issue here enacts a valid excise tax
on outdoor advertising displays in Baltimore City and
does not impermissibly burden Clear Channel’s right to
freedom of speech. We, therefore, hold that the Ordinance
is constitutional, and that the Tax Court did not err in
affirming the City’s denial of Clear Channel’s request for
refunds. Accordingly, we affirm the judgment entered by
the circuit court.
JUDGMENT OF THE CIRCUIT COURT FOR
BALTIMORE CITY AFFIRMED. COSTS TO BE
PAID BY APPELLANT.

71a

APPENDIX C
IN THE CIRCUIT COURT FOR
BALTIMORE CITY

Case No. 24-C-18-001778

CLEAR CHANNEL OUTDOOR, INC.
Petitioner,
v.
DIRECTOR, DEPARTMENT OF FINANCE OF
BALTIMORE CITY
Respondent.

Filed: October 24, 2018

MEMORANDUM AND ORDER
Pursuant to Section 13-532 of the Md. Code Ann. Tax
General Article, Section 10-222 of Md. Code Ann. State
Government Article, and Maryland Rule 7-202,
Petitioner, Clear Channel Outdoor, Inc. (hereinafter
“Clear Channel”) filed a Petition for Judicial Review
(Docket Entry #1) of the Maryland Tax Court’s Order of
February 27, 2018. Clear Channel was represented before

72a
this Court by Andrew Baida, Esq. and Gordon Todd, Esq.
Respondent, Director of the Department of Finance of
Baltimore City’s (hereinafter the “City”) was represented
by Steven J. Potter, Esq. and Matthew Nayden, Esq. For
the reasons set forth herein, this Court finds the
Maryland Tax Court’s decision to be legally sound,
supported by the evidence in the record, and AFFIRMS
the decision.
FACTUAL AND PROCEDURAL BACKGROUND
This case involves an appeal from a Tax Court decision
involving a challenge to the constitutionality of Baltimore
City Ordinance No. 13-139 (hereinafter, the “Ordinance”)
(Baltimore City Code. Art. 28, §29-2), which imposed a tax
on a category of outdoor signs, including Clear Channel’s
billboards. Clear Channel asserted that the tax imposed
by the Ordinance infringed on its rights guaranteed by
the First and Fourteenth Amendments of the United
States Constitution, as well as Article 40 of the Maryland
Declaration of Rights. The Maryland Tax Court affirmed
the Director’s denial of Clear Channel’s request for a
refund of the tax payments made for fiscal years 2014
through 2016 related to this City Ordinance. In reaching
its decision, the Tax Court addressed the City’s broad
powers to tax; the level of scrutiny to be applied to the
Ordinance; and Clear Channel’s contention that the tax is
a targeted tax that chills free speech.
The Tax Court began its analysis by explaining that
the City of Baltimore holds the power to tax to the same
extent as the State of Maryland, and that the First
Amendment does not prevent the City from imposing
taxes consistent with that power. (Md. Tax Ct. Mem. &
Ord. at 4). It further opined that there is a “strong
presumption in favor of duly enacted taxation schemes”
Id., and that provided a tax is rationally related to a

73a
legitimate state interest, like raising public revenue, it is
not incumbent on the government to state its reasons,
motives or policies for adopting the tax. (Md. Tax Ct.
Mem. & Ord. at 4).
The Tax Court then ruled that rational basis review is
the appropriate level of scrutiny applicable to the tax.
(Md. Tax Ct. Mem. & Ord. at 5). The Tax Court clarified
that the tax is an excise tax imposed on the privilege of
continuing in business, and not a tax on exercising free
speech. (Md. Tax Ct. Mem. & Ord. at 4). It acknowledged
that although Clear Channel is in the business of showing
messages on its billboards on behalf of others, the sheer
conduct of owning, operating, and charging fees for the
use of ones billboards, did not possess sufficient
communicative or expressive elements to implicate the
First Amendment protections. (Md. Tax Ct. Mem. & Ord.
at 5). Consequently, it subjected the tax to only rational
basis review because the tax did not infringe on Clear
Channel’s free speech rights—or any other fundamental
rights—and because the tax had a rational relation to a
legitimate government interest. (Md. Tax Ct. Mem. &
Ord. at 5).
The Tax Court concluded by addressing Clear
Channel’s claims that the tax is a targeted tax, which
causes a significant risk of chilling the speech of speakers
fearful of further taxation and regulation. (Md. Tax Ct.
Mem. & Ord. at 6). The Tax Court stated that the tax
applies to all off-premises billboards and does not single
out one small group of off-premises billboards while
exempting others from taxation. (Md. Tax Ct. Mem. &
Ord. at 6). It expressed that those billboards subject to the
tax, fall within the City’s broad latitude to tax because
they take up space and obstruct views, distract motorists,
and displace alternative uses of land. (Md. Tax Ct. Mem.

74a
& Ord. at 6-7). Finally, it stated that it is the City’s longstanding
zoning regulations
and
concentrated
marketplace that caused the majority of the tax to fall on
Clear Channel, not the structure of the tax ordinance.
(Md. Tax Ct. Mem. & Ord. at 7).
The tax at issue in this case was enacted by ordinance
on July 20, 2013. The Ordinance imposed an excise tax on
the “privilege of exhibiting outdoor displays in the City”,
(Baltimore City Code. Art. 28, §29-2) and defines an
outdoor advertising display as an:
outdoor display of a 10 square foot or larger image or
message that directs attention to a business,
commodity, service, event, or other activity that is:
(i) sold, offered, or conducted somewhere other than
on the premises on which the display is made; and (ii)
sold, offered, or conducted on the premises only
incidentally if at all.
Baltimore City Code. Art. 28, §29-1 (d). The tax is to be
paid by an advertising host—a person who “owns or
controls a billboard . . . and charges fees for its use as an
outdoor advertising display.” Baltimore City Code. Art.
28, §29-1 (b). The tax amounts to $15 per square foot of
advertising imagery of an electronic outdoor advertising
display that changes images more than once a day, and $5
per square foot of advertising imagery for any other
outdoor advertising display. Baltimore City Code. Art. 28,
§29-3 (a). The tax is assessed by and paid to the Finance
Director along with a detailed report on or before July 10
of each year for the preceding tax year. Baltimore City
Code. Art. 28, §29-1 (a)(1), (2) and (b). The Ordinance
excludes outdoor advertising displays by governmental
entities or instrumentalities of the government, as well as
those outdoor advertising displays that display activity

75a
which is conducted on the premises where the display
appears. Baltimore City Code. Art. 28, §29-1 (d) and (e)(2).
The evidence and exhibits presented before the Tax
Court reflect that Clear Channel, Inc. is an outdoor media
company that owns and operates outdoor signs
throughout the City of Baltimore. (Md. Tax Ct. Mem. &
Ord. at 1.) The Director of the Department of Finance of
Baltimore City is the Baltimore City official charged with
assessing and collecting the tax imposed by the
Ordinance. (Md. Tax Ct. Mem. & Ord. at 1). Clear
Channel owns and operates approximately ninety-five
percent (95%) of the advertising displays subject to the
Ordinance; some of Clear Channel’s outdoor advertising
displays are electronic,1 and others are not, they are
however, all offsite displays.2 (Md. Tax Ct. Mem. & Ord.
at 3). Three other entities own and operate the remaining
outdoor advertising displays subject to the Ordinance. Id.
The revenue generated from the tax is credited to the
City’s General Fund, and is used to benefit the general
public by funding programming at public schools,
theaters, and museums that are open to the general
public. (Md. Tax Ct. Mem. & Ord. at 3). Baltimore City
has prohibited the construction of new billboards since
2000. See Baltimore. City. Code, Art. 32, §17-603(a)(1).
The Tax Court affirmed the City’s denial of Clear
Channel’s request for a refund of the Outdoor Advertising

Electronic outdoor advertising displays are those with images
that change more than once a day. Baltimore City Code. Art. 28, §293 (a)(1).
1

2
Offsite displays are those that promote businesses, commodities,
services, events, and other activities that do not occur on the premises
where the display appears.

76a
tax paid in fiscal years 2014, 2015 and 2016. Clear Channel
appealed the decision.
LAW AND ANALYSIS
I. STANDARD OF REVIEW
A decision of the Tax Court will be affirmed unless
that decision is not supported by substantial evidence
appearing in the record or is erroneous as a matter of law.
F.D.R. Srour P'ship v. Montgomery Cty., 407 Md. 233,
243-44 (2009). The Tax Court’s decision, however, will be
overturned if it was based on a material error of law. Id.
at 244. This standard of review is both narrow and
expansive in the sense that:
It is narrow to the extent that reviewing courts, out of
deference to agency expertise, are required to affirm
an agency’s findings of fact, as well as its application
of law to those facts, if reasonably supported by the
administrative record, viewed as a whole. The
standard is equally broad to the extent that reviewing
courts are under no constraint to affirm an agency
decision premised solely upon an erroneous conclusion
of law.
State Dep’t of Assessments & Taxation v. Consol. Coal
Sales Co., 382 Md. 439, 455 (2004).
The Maryland Tax Court is an administrative agency,
and this Court thus, does not review its findings of fact but
simply examines its decision to determine: 1) the legality
of the decision and (2) whether there was substantial
evidence from the record as a whole to support the
decision. Baltimore Lutheran High Sch. Ass’n, Inc. v.
Employment Sec. Admin., 302 Md. 649, 662 (1985).
Additionally, relevant to this particular case, the Court of
Special Appeals has held that administrative agencies

77a
[such as the Tax Court] are fully competent to resolve
issues of constitutionality, and the validity of statutes or
ordinances in adjudicatory administrative proceedings
which are subject to judicial review. Comptroller of the
Treasury v. Zorzit, 221 Md. App. 274, 295 (2015).
The law in this area has been delineated in
Metromedia, Inc. v. City of San Diego, where the
Supreme Court recognized the importance of billboards
as a well-established medium of communication, used to
convey a broad range of messages. 453 U.S. 490, 501
(1981). Nevertheless, the Supreme Court also
acknowledged that billboards present a unique set of
problems because they combine communicative and noncommunicative aspects. Id. at 527. The Court however,
held that although regulation of the non-communicative
aspects of a medium will often impinge to some degree on
the communicative aspects, the government has
legitimate interests in controlling the non-communicative
aspect of a billboard. Metromedia, 453 U.S. 490, 502.
Consequently, the Tax Court’s particularized inquiry into
the nature of the ordinance in question, to reconcile the
government’s legitimate interests with Clear Channel’s
right to expression, was correct as a matter of law. Id.
As the Tax Court held and this Court agrees, the tax
is directed at a means of expression rather than the
expression itself. (Md. Tax Ct. Mem. & Ord. at 6). The
First Amendment only affords protection to regulation of
actual or symbolic speech, and expressive conduct.
Virginia v. Black, 538 U.S. 343, 358 (2003). Clear
Channel’s conduct of continuing in business in Baltimore
City simply cannot be classified as actual or symbolic
speech, or expressive conduct. The tax is an excise tax on
the privilege afforded to Clear Channel to do business
within Baltimore City. It is not a tax on Clear Channel’s

78a
right to free speech, because it neither regulates the type
or volume of message that may be displayed on the
billboard.
The tax in this case is solely a tax on the economic
activity of conducting business within the City of
Baltimore, and the First Amendment does not prohibit a
tax on such economic activity. See Sorrell v. IMS Health
Inc., 564 U.S. 552, 567 (2011) (“[i]t is true that restrictions
on protected expression are distinct from restrictions on
economic activity or, more generally, on non-expressive
conduct. It is also true that the First Amendment does not
prevent restrictions directed at commerce or conduct
from imposing incidental burdens on speech.”)
Consequently, because the tax is levied on Clear
Channel’s economic activity of owning, operating and
charging a fee for the use of its billboards, and not on
Clear Channel’s free speech rights, or any other
fundamental rights for that matter, it is subject only to
rational basis review. See United States v. Am. Library
Ass’n, Inc., 539 U.S. 194, 216, (2003) (“we should not
examine the statute’s constitutionality as if it raised no
special First Amendment concern—as if, like tax or
economic regulation, the First Amendment demanded
only a “rational basis” for imposing a restriction.”); see
also Maryland Aggregates Ass’n, Inc. v. State, 337 Md.
658, 673 (1995) where the Court of Appeals held that in
areas of social and economic policy, a statutory
classification that neither proceeds along suspect lines ,
nor infringes fundamental constitutional rights, must be
upheld if there is any reasonably conceivable state of facts
that could provide a rational basis for the classification.
The government interest in raising revenue and
regulating billboards that are larger in size, distract
motorists, and displace alternative uses of land is a

79a
legitimate interest. The elected means of taxing parties
that are privileged to conduct business within the City is
rationally related to the government’s legitimate interest.
Therefore, the Baltimore City Ordinance satisfies rational
basis review. See State v. Phillips, 210 Md. App. 239, 274
(2013)(“a statute reviewed under the ‘rational basis’ test
‘enjoys a strong presumption of constitutionality.’) The
Tax Court is factually correct, based on the record, in its
conclusion that the Ordinance centers on Clear Channel’s
economic activity of charging a fee to display the
messages of a third party; conduct that is peripheral to
the content of the billboard. Consequently, its conclusion
that the First Amendment simply does not provide
protection to this non-communicative aspect of a billboard
operator’s business is also legally sound.
II. THE TAX COURT WAS CORRECT IN FINDING
THAT THE TAX APPLIED TO ALL OFFPREMISE
BILLBOARDS,
AND
CLEAR
CHANNEL WAS NOT SINGLED OUT FOR
SPECIAL TREATMENT.
At the hearing before this Court, Clear Channel
stressed the applicability of Minneapolis Star & Tribune
Co. v. Minnesota Com’r of Revenue and its holding to the
current case. 460. U.S. 575 (1983). The Tax Court made no
reference to that case, and similarly, this Court finds the
case to be immaterial, as the case is wholly distinguishable
from the case at bar. In Minneapolis Star, the State of
Minnesota imposed a use tax on the cost of paper and ink
products consumed in the production of certain
publications, and exempted the first $100,000 worth of
paper and ink consumed in any calendar year. Id. By
including such an exemption, the bulk of the tax fell on a
small number of newspapers. Id. at 579.

80a
Indeed, that case involved a targeted tax that applied
to a small number of the populace, that case is
nevertheless distinguishable from the current case on
several grounds. First, the general rule in Minnesota at
that time, was to tax only the ultimate, or retail, sale and
not the components, like ink and paper. Therefore,
Minnesota’s decision to deviate from an alreadyestablished scheme, and carve out a provision that taxed
component parts like ink and paper, singled out the press
for special treatment. Such singling out, without adequate
justification, created a suspicion that the goal was not
unrelated to suppression of expression, which is
presumptively unconstitutional. See Minneapolis Star at
585. In the current case, there is no preexisting general
scheme that the City deviates from to single out billboard
operators for special treatment.
The
second
important
distinction
between
Minneapolis Star and the current case is that the tax in
that case was targeted at the press, a category within
which Clear Channel’s billboards do not fall. See City of
Baltimore v. A.S. Abell, Co., 218 Md. 273 (1958), where the
Court of Appeals applied differing rationales to billboard
operators and other media such as, newspaper publishers,
and radio and television broadcasters. The Court in
Minneapolis Star focused on the important role of the
press as a watchdog of government activity, and how
Minnesota’s differential taxation would have troubled the
Framers of the First Amendment because the Minnesota
tax created a threat of censoring critical comment by the
press. In this case, Clear Channel’s billboards are
primarily for advertising, and for all the political and
charitable information it displays, it simply is not in the
same category as the fourth estate.

81a
Additionally, the current case is distinguishable from
Minneapolis Star because both cases involve a different
type of tax. Minneapolis Star involves a use tax and the
current case involves an excise tax. Finally, the use tax in
Minneapolis Star, by taxing the component parts like ink
and paper, directly taxed the output amount of the
publication, while the Baltimore City Ordinance does no
such thing. The Baltimore City Ordinance by no means
implicates the information that is broadcasted on Clear
Channel’s billboards, it does not tax based on what is
displayed, when the display is made, or based on the
amount of information that is displayed. The Baltimore
City Ordinance simply imposes a tax for Clear Channel’s
economic activity, which is non-expressive conduct.
The Tax Court correctly ruled that the tax applies to
all off-premises billboards and that it is the City’s longstanding
zoning regulations
and
concentrated
marketplace that caused the majority of the tax to fall on
Clear Channel, not the structure of the tax ordinance. In
Herman v. Mayor & City Council of Baltimore, the Court
of Appeals opined that the State is not limited to ad
valorem taxation, and that it may impose different
specific taxes upon different trades and professions and
may vary the rates of excise upon various products. 189
Md. 191, 197 (1947). The same Court stated that “Article
23 and
the
Fourteenth Amendment permit
discrimination, not arbitrary, in subjects or rates of
taxation.” Id. at 196; see also Leathers v. Medlock, 499
U.S. 439, 451 (1991) (“[i]inherent in the power to tax is the
power to discriminate in taxation, legislatures have
especially broad latitude in creating classifications and
distinctions in tax statutes.”)

82a
CONCLUSION
The Ordinance in this case imposes a tax on all those
in the trade of owning, operating and charging fees for
displaying off-site outdoor advertisements. Clear Channel
is a member of this trade, and the trade is indeed made up
of a small number of members, but this is because the City
essentially allows Clear Channel to profit from a
continued non-conforming use, as the construction of new
billboards in the City has been prohibited for more than a
decade. Baltimore. City. Code, Art. 32, §17-603(a)(1).
Clear Channel enjoys the privilege of being a member of
an exclusive trade in Baltimore City, and it is taxed
accordingly as a member of that trade. The chilling effect
that Clear Channel alleges is not apparent to this Court
because the Ordinance is a legislative act which outlines
the specific tax rate to be paid, and in order to be repealed
or amended, the City must follow a set process. In the
event of such an occurrence, Clear Channel will indeed
have a ripe claim, and at that time, may enjoin the City’s
attempt. However, that is an issue for a different day.
The Tax Court’s decision is correct as a matter of law,
and is supported by the substantial evidence from the
record. This Court therefore, AFFIRMS its decision.

83a
APPENDIX D
IN THE MARYLAND TAX COURT

Appeal No. 16-MI-BA-0571

CLEAR CHANNEL OUTDOOR, INC.,
Petitioner,
v.
DEPARTMENT OF FINANCE OF
BALTIMORE CITY,
Respondent.

Filed: February 27, 2018
MEMORANDUM AND ORDER
This case concerns a challenge to the constitutionality
of a tax imposed by the City of Baltimore in 2013 on a
category of outdoor signs brought pursuant to the First
and Fourteenth Amendments of the United States
Constitution and Article 40 of the Maryland Declaration
of Rights. Petitioner, Clear Channel Outdoor, Inc. (“Clear
Channel” or “Petitioner”), is an outdoor media company
which owns and operates outdoor signs throughout the
City of Baltimore. Respondent, the Director of the
Department of Finance of Baltimore City (“City” or
“Respondent”), is the Baltimore City official responsible

84a
for collecting all Baltimore City revenue through various
taxes, fines, fees and penalties.
The Baltimore City Council passed, and the Mayor
signed, Ordinance 13-139 into law on June 17, 2013 (the
“Ordinance”). The Ordinance imposes “a tax on the
privilege of exhibiting outdoor advertising displays” in the
City of Baltimore. The Ordinance defines an “outdoor
advertising display” as any display of a 10 square foot or
larger image or message that directs attention to a
business, commodity, service, event, or other activity that
is: (i) sold, offered, or conducted somewhere other than on
the premises on which the display is made; and (ii) sold,
offered or conducted on the premises only incidentally if
at all.
The tax is an excise tax imposed on the privilege of
exhibiting outdoor advertising displays in the City of
Baltimore that is exercised by an “Advertising Host,”
which is a person who owns or controls a billboard, poster
board, or other sign and charges fees for its use as an
outdoor advertising display. An Advertising host’s tax
liability is measured per a square foot of advertising
imagery which means a square foot of space occupied by
an outdoor advertising display. The annual amount of the
tax imposed is $15 per square foot of advertising imagery
for an electronic outdoor advertising display that changes
more than once a day and $5 per square foot of advertising
imagery for any other outdoor advertising display. The
tax imposed is due at the time the annual report is filed by
the Advertising Host.
Two months after the City enacted the tax, Clear
Channel sued in federal court to block the City’s
imposition of the tax contending that the Ordinance
restricted constitutionally protected speech. The City
moved to dismiss the case on two grounds: (i) that the

85a
Ordinance imposed a state tax that a federal court lacked
jurisdiction to consider, and (ii) that Clear Channel failed
to state a claim under the First Amendment. After
substantial document and deposition discovery, the
parties cross-moved for summary judgment. In
December 2015, the District Court ruled that the
Ordinance imposed a tax subject to review in the statecourt system. Clear Channel paid the 2014 and 2015 taxes
invoiced by the City under protest and demanded a refund
on the ground that the tax is unconstitutional. The City
denied Clear Channel’s refund request, asserting that the
tax did not unconstitutionally restrict speech. Clear
Channel filed this refund action in the Tax Court, and
while the refund request was pending, Clear Channel also
paid its 2016 tax and filed another refund claim on the
same grounds.
“Billboards in Baltimore City” are defined in the
City’s Zoning Code as “any sign that directs attention to
a business, commodity, service, event, or other activity
that is: (i) sold, offered, or conducted somewhere other
than on the property on which the sign is located; or (ii)
sold, offered, or conducted on that property only
incidentally, if at all.” BALTIMORE CITY CODE ART. 32, 1303(g)(1). The zoning laws prohibit general advertising
signs altogether in non-commercial areas, and in certain
business and industrial areas where general advertising
signs are permitted, they are subject to numerous
restrictions. The zoning laws also make clear that no sign
may constitute a traffic hazard and that the City may
relocate or remove any sign it deems to be one.
Baltimore City has prohibited the construction of new
general advertising signs for more than the last decade.
Petitioner owns and operates several hundred outdoor
advertising displays in the City, some of which are

86a
electronic with images that change more than once a day.
Others are nonelectronic. All of them, however, are
“offsite” displays. They promote businesses, commodities,
services, events, and other activities that do not occur on
the premises where the display appears. Moreover, Clear
Channel’s displays often carry a variety of messages.
Clear Channel owns and operates approximately ninetyfive percent (95%), or 800 of the 830, advertising displays
subject to the Billboard Ordinance. There are three (3)
other entities that own or operate the outdoor advertising
displays subject to the Billboard Ordinance.
Baltimore City credits the revenue generated by the
Billboard Ordinance to the City’s General Fund, and the
revenue is used to benefit the general public by funding
programming at public schools, theaters, and museums
that are open to the general public.
Clear Channel contends that billboard speech is
protected expression under the U.S. Constitution and
Maryland Declaration of Rights, subjecting the tax to
heightened rather than rational-basis scrutiny. According
to Clear Channel, the Ordinance is unconstitutional for
three independent reasons. First, the government may
not impose a specific (rather than general) tax on speech.
Second, targeted taxes on a limited number of speakers
create an intolerable risk of chilling speech. Third, the tax
is not narrowly tailored under intermediate scrutiny
because by imposing a specific rather than general tax, it
imposes a greater-than-necessary burden on speech.
The City of Baltimore holds the power to tax to the
same extent as the State of Maryland has or could
exercise said power within the limits of the City of
Baltimore as part of its general taxing power. The
Baltimore City Council holds the legislative power to
impose different specific taxes upon different trades and

87a
professions and may vary the rates of excise upon various
products, “Herman v. Mayor & City Council of
Baltimore, 189 Md. 191, 197 (1947). “Taxes . . . may . . . be
laid on the exercise of personal rights and privileges,”
including “the privilege of exhibiting outdoor advertising
displays in the City.” Art. 28, § 29-2; Carmichael 301
U.S. at 508, 57 S. Ct. 868. The First Amendment does not
prohibit the imposition of excise taxes, and in the First
Amendment context, there is a “strong presumption in
favor of duly enacted taxation schemes.” Leathers v.
Medlock, 499 U.S. 439, 451, 111 S.Ct. 1438, 113 L.Ed.2d
494 (1991). If the tax is rationally related to a legitimate
state interest, including collecting public revenues, it is
not incumbent on the government to state its reasons,
motives or policies for adapting the tax. Merely because a
tax has some regulatory effect does not mean the tax
violates First Amendment rights. In fact, every tax is in
some measure regulatory. The power of the City to tax is
broad and exertion of that power may not be judicially
restrained because it may have a regulatory effect.
An excise tax imposed on the privilege of exhibiting
outdoor advertising displays is a tax on the privilege of
continuing in business, not on exercising free speech. The
Court agrees with the City that the business of owning or
controlling a billboard, poster board or other sign and
charging taxes for its use as an outdoor advertising
display to show messages on behalf of paying clients is not
violative of Petitioner’s rights to free speech. Petitioner’s
conduct does not possess “sufficient communicative
elements” for the First Amendment to come “into play,”
Texas v. Johnson, 491 U.S. 397, 404, 109 S.Ct. 2533, 105
L.Ed.2d 342 (1989). Petitioner does not express or say
anything; it only sells space to advertisers who say things.
First Amendment protection extends only to conduct that
is inherently expressive and displaying a third party’s

88a
message on an outdoor advertising billboard in exchange
for financial compensation lacks any significant
expressive element. Arcara v. Cloud Books, Inc., 478 U.S.
697, 706-07, 106 S.Ct. 3172, 92 L.Ed.2d 568 (1986); See e.g.
Rumsfeld 547 U.S. at 64, 126 S. Ct. 1297 (“accommodating
the military’s message does not affect the law schools’
speech, because the schools are not speaking when they
host interviews and recruiting receptions.”); PruneYard
Shopping Ctr. v. Robins, 447 U.S. 74, 88, 100 S. Ct. 2035,
64 L. Ed. 2d 741 (1980) (no First Amendment violation in
authorizing expressive activity on private property
because views expressed are not associated with owner,
who was “free to publicly dissociate themselves from the
views of the speakers.”)
The Court finds that the tax is subject to rational basis
review because the tax does not infringe Petitioner’s free
speech rights. The tax has a rational relation to a
legitimate governmental purpose and would only be
subjected to a higher level of scrutiny if it interfered with
the exercise of a fundamental right such as freedom of
speech. In the present case, the taxpayer has made no
showing that the tax imposes a burden on free speech. It
was imposed for revenue purposes on the privilege of
exhibiting outdoor advertising displays and not on the
right to disseminate information, ideas or speech. It is
permissible to tax non-expressive conduct such as
imposing a tax on the privilege of making retail sales of
personal property. In the present case, this tax is directed
toward a means of expression rather than the expression
itself and does not burden the substance of the expression.
First Amendment protection does not extend to the form
of communication if there is no deterrence or interference
with the expression of information and ideas. Here there
is no cognizable burden on speech.

89a
Clear Channel further claims that Baltimore City’s tax
unconstitutionally limits the classifications of signs and
targets a small group of operators of outdoor advertising
displays. The result is a targeted tax measure which
causes a significant risk of chilling speech by speakers
fearful of further taxation and regulation. At a minimum,
the City could have drafted a sign tax to apply to a broader
group of operators.
However, the City argues that the tax’s classification
in Art. 28, § 29-3(a) for digital billboards poses no threat
to the expression of particular ideas or expressions. The
amount of the tax based on size and technology is not
measured by the extent of the circulation of the message
shown on the outdoor advertising displays. The tax’s
requirement that an Advertising Host charge fees for the
use of an Outdoor Advertising Display at least one time
per year is consistent with the continuance of a nonconforming use and does not raise any constitutional
question.
Moreover, the tax is applicable to all off-premises
billboards and does not single out one small group of offpremises billboards while exempting others from
taxation. The City ordinance charges any entity that owns
or operates an off-premises outdoor display ten feet (10')
or larger in size. There is a rational basis for classifying
large and immobile billboards designed to stand out from
other signs and other advertising. The billboards subject
to tax take up space and may obstruct views, distract
motorists and displace alternative uses of land. These
physical characteristics of taxable signs are certainly
within the City’s broad latitude in creating classifications
and distinctions in its tax statutes. Even though there are
a limited number of advertising hosts subject to the tax,
there is not suppression of speech. The City’s long-

90a
standing zoning regulations controlling billboards and the
concentrated marketplace in the City has caused the
majority of the tax to fall on the Petitioner, not the
structure of the tax ordinance. Otherwise, local
governments would be restricted from raising operating
revenue through general taxation ordinances where there
were only a few similar business enterprises.
The Court finds that the City’s denial of Petitioner’s
requests for a refund of the Outdoor Advertising Tax for
the fiscal years 2014, 2015 and 2016 shall be AFFIRMED.

91a
APPENDIX E
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MARYLAND

Civil Action No. GLR-13-2379

CLEAR CHANNEL OUTDOOR, INC.,
Plaintiff,
v.
MAYOR AND CITY COUNCIL OF BALTIMORE,
Defendant.

Filed: December 28, 2015

MEMORANDUM OPINION
THIS MATTER is before the Court on Plaintiff’s,
Clear Channel Outdoor, Inc. (“Clear Channel”), Motion
for Summary Judgment and Defendant’s, Mayor and City
Council of Baltimore (the “City”), Cross-Motion for
Summary Judgment. (ECF Nos. 37, 38). Principally at
issue is whether Baltimore City Ordinance 13-139 (the
“Billboard Ordinance”), which levies select outdoor
advertising displays in the city, constitutes a tax under the
Tax Injunction Act (“TIA”), 28 U.S.C. § 1341 (2012).

92a
The Court, having reviewed the Motions and
supporting documents, finds no hearing necessary. See
Local Rule 105.6 (D.Md. 2014). For the reasons outlined
below, the Court will deny Clear Channel’s Motion for
Summary Judgment and grant the City’s Cross-Motion
for Summary Judgment.
I. BACKGROUND1
The Billboard Ordinance became law in June 2013. See
Balt., Md., Ordinance 13-139 (Jun. 17, 2013) (codified as
amended at Balt., Md., Code art. 28, §§ 29 et seq. (2014)).
The Baltimore City Council enacted it for “the purpose of
imposing a tax on the privilege of exhibiting outdoor
advertising displays in the City.” Id. at 1:2-3. Clear
Channel owns and operates approximately ninety-five
percent of the advertising displays subject to the
Billboard Ordinance. It alleges the Billboard Ordinance
will cost it $1.5 million annually.
On August 14, 2013, Clear Channel filed a Complaint
alleging the Billboard Ordinance impermissibly regulates
commercial speech in violation of the First and
Fourteenth Amendments to the United States
Constitution. (ECF No. 1). Clear Channel seeks a
declaratory judgment that the Billboard Ordinance is
unconstitutional and an order enjoining the City from
enforcing it. The City moved to dismiss the action on
September 19, 2013, arguing this Court did not have
subject-matter jurisdiction because the Billboard
Ordinance is a “tax” under the TIA. (ECF No. 15). The
Court denied the City’s Motion to Dismiss on May 19,
2014, explaining that “at least at th[at] stage of the
1
Unless otherwise noted, the following facts are taken from the
parties’ briefings on the instant motions, and are viewed in the light
most favorable to the nonmoving party.

93a
litigation, the ordinance [was] a fee, not a tax, for the
purposes of the TIA.” (Mem. Op. at 2, ECF No. 21). The
City filed a Motion for Reconsideration (ECF No. 23),
which the Court denied on August 19, 2014 (ECF No. 26).
Clear Channel filed a Motion for Summary Judgment
on April 3, 2015. (ECF No. 37). The City responded by
filing an Opposition to the Motion for Summary Judgment
and Cross-Motion for Summary Judgment on April 20,
2015. (ECF No. 38). Clear Channel then submitted an
Opposition to the City’s Motion for Summary Judgment
and Reply supporting its Motion for Summary Judgment
on May 7, 2015. (ECF No. 39). Finally, the City submitted
a Reply to Clear Channel’s Opposition on May 26, 2015.
(ECF No. 40).
II. DISCUSSION
A. Standard of Review
Under Federal Rule of Civil Procedure 56, the Court
must grant summary judgment if the moving party
demonstrates there is no genuine issue as to any material
fact, and the moving party is entitled to judgment as a
matter of law. Fed.R.Civ.P. 56(a). In reviewing a motion
for summary judgment, the Court views the facts in a
light most favorable to the non-moving party. Anderson
v. Liberty Lobby, Inc., 477 U.S. 242, 255 (1986) (citing
Adickes v. S. H. Kress & Co., 398 U.S. 144, 157 (1970)).
Once a motion for summary judgment is properly
made and supported, the opposing party has the burden
of showing that a genuine dispute exists. Matsushita Elec.
Indus. Co. v. Zenith Radio Corp., 475 U.S. 574, 586-87
(1986). Rule 56(c) requires the nonmoving party to go
beyond the pleadings and by its own affidavits, or by the
depositions, answers to interrogatories, and admissions
on file, designate specific facts showing that there is a

94a
genuine issue for trial. Celotex Corp. v. Catrett, 477 U.S.
317, 324 (1986). The nonmoving party “cannot create a
genuine issue of material fact through mere speculation
or the building of one inference upon another.” Beale v.
Hardy, 769 F.2d 213, 214 (4th Cir. 1985) (citing Barwick
v. Celotex Corp., 736 F.2d 946, 963 (4th Cir. 1984)).
“[T]he mere existence of some alleged factual dispute
between the parties will not defeat an otherwise properly
supported motion for summary judgment; the
requirement is that there be no genuine issue of material
fact.” Anderson, 477 U.S. at 247-48. A “material fact” is
one that might affect the outcome of a party’s case. Id. at
248; see also JKC Holding Co. v. Wash. Sports Ventures,
Inc., 264 F.3d 459, 465 (4th Cir. 2001) (citing HoovenLewis v. Caldera, 249 F.3d 259, 265 (4th Cir. 2001)).
Whether a fact is considered to be “material” is
determined by the substantive law, and “[o]nly disputes
over facts that might affect the outcome of the suit under
the governing law will properly preclude the entry of
summary judgment.” Anderson, 477 U.S. at 248; accord
Hooven-Lewis, 249 F.3d at 265. A “genuine” issue
concerning a “material” fact arises when the evidence is
sufficient to allow a reasonable jury to return a verdict in
the nonmoving party’s favor. Anderson, 477 U.S. at 248.
When the parties have filed cross-motions for
summary judgment, the court must “review each motion
separately on its own merits to ‘determine whether either
of the parties deserves judgment as a matter of law.’”
Rossignol v. Voorhaar, 316 F.3d 516, 523 (4th Cir. 2003)
(quoting Philip Morris Inc. v. Harshbarger, 122 F.3d 58,
62 n.4 (1st Cir. 1997)). Moreover, “[w]hen considering
each individual motion, the court must take care to
‘resolve all factual disputes and any competing, rational
inferences in the light most favorable’ to the party

95a
opposing that motion.” Id. (quoting Wightman v.
Springfield Terminal Ry. Co., 100 F.3d 228, 230 (1st Cir.
1996)). This Court, however, must also abide by its
affirmative obligation to prevent factually unsupported
claims and defenses from going to trial. Drewitt v. Pratt,
999 F.2d 774, 778-79 (4th Cir. 1993). If the evidence
presented by the nonmoving party is merely colorable, or
is not significantly probative, summary judgment must be
granted. Anderson, 477 U.S. at 249-50.
B. Analysis
The Court will deny Clear Channel’s Motion for
Summary Judgment and grant the City’s Cross-Motion
for Summary Judgment because the Billboard Ordinance
is a “tax” under the TIA.
“The TIA ‘is a jurisdictional bar not subject to
waiver.’” Brittingham 62, LLC v. Somerset Cty. Sanitary
Dist., Inc., No. GLR 12-3104, 2013 WL 398098, at *3
(D.Md. Jan. 31, 2013) (quoting Antosh v. City of Coll.
Park, 341 F.Supp.2d 565, 568 (D.Md. 2004)). It provides
that federal courts lack subject-matter jurisdiction to
“enjoin, suspend or restrain the assessment, levy or
collection of any tax under State law where a plain, speedy
and efficient remedy may be had in the courts of such
State.” 28 U.S.C. § 1341. It “applies to actions where, as
here, a taxpayer seeks injunctive or declaratory relief
under § 1983.” Folio v. City of Clarksburg, W.Va., 134
F.3d 1211, 1214 (4th Cir. 1998).
When considering whether the TIA bars a federal
challenge to a charge imposed by a state or local
government, a district court must resolve two issues:
(1) whether a plain, speedy, and efficient remedy exists in
state court; and (2) whether the charge is a tax or a fee.
Collins Holding Corp. v. Jasper Cty., S.C., 123 F.3d 797,

96a
799 (4th Cir. 1997). Clear Channel does not argue that
Maryland state courts do not provide a speedy and
efficient remedy. Thus, the sole issue before the Court is
whether the Billboard Ordinance is a tax or a fee under
the TIA.
“The nebulous line between tax and fee is determined
by federal law.” Brittingham, 2013 WL 398098, at *3
(citing Folio, 134 F.3d at 1217). As a general matter, when
evaluating whether a particular charge is a tax or a fee, a
court should assess “whether the charge is for revenue
raising purposes, making it a ‘tax,’ or for regulatory or
punitive purposes, making it a ‘fee.’” Valero Terrestrial
Corp. v. Caffrey, 205 F.3d 130, 134 (4th Cir. 2000). All
charges fall on a spectrum with a “classic tax” on one end
and a “classic fee” on the other. San Juan Cellular Tel.
Co. v. Pub. Serv. Comm’n of P.R., 967 F.2d 683, 685 (1st
Cir. 1992). “The ‘classic tax’ is imposed by the legislature
upon a large segment of society, and is spent to benefit the
community at large.” Valero, 205 F.3d at 134 (citing San
Juan Cellular, 967 F.2d at 685). “The ‘classic fee’ is
imposed by an administrative agency upon only those
persons, or entities, subject to its regulation for
regulatory purposes, or to raise ‘money placed in a special
fund to defray the agency’s regulation-related expenses.’”
Id. (quoting San Juan Cellular, 967 F.2d at 685).
To aid a court’s assessment of where a charge falls on
the spectrum, the United States Court of Appeals for the
Fourth Circuit has developed a three-prong inquiry: “(1)
what entity imposes the charge; (2) what population is
subject to the charge; and (3) what purposes are served
by the use of the monies obtained by the charge.” Id.
(emphasis added). This inquiry often yields an ambiguous
result, as the characteristics of a charge will often place it
somewhere between a classic fee and a classic tax. Id.

97a
The result of the three-prong inquiry is ambiguous
when, for example, a legislature imposes the charge,
indicating the charge is a tax, but the charge applies to
only a narrow segment of the population, supporting a
finding that the charge is a fee. See Club Ass’n of W. Va.,
Inc. v. Wise, 156 F.Supp.2d 599, 613-14 (S.D.W.Va. 2001),
aff’d sub nom., Club Ass’n. v. Wise, 293 F.3d 723 (4th Cir.
2002).
When the result of the three-prong inquiry is
ambiguous, the third prong becomes the most important.
See DIRECTV, Inc. v. Tolson, 513 F.3d 119, 125 (4th Cir.
2008); Club Ass’n, 156 F.Supp.2d at 614.
1. The First Prong Indicates the Billboard
Ordinance Is a Tax.
The first prong indicates a charge is a tax when it is
imposed by a legislature, rather than an administrative
agency, and the responsibility for collecting the charge
lies with the general tax assessor. See Valero, 205 F.3d at
134; Collins, 123 F.3d at 800. There is no dispute that the
Baltimore City Council enacted the Billboard Ordinance
and the City’s general tax assessor, the Director of
Finance, is responsible for collecting the charge. Balt.,
Md., Code art. 28, § 4-1; Balt., Md., Ordinance 13-139 § 295. Thus, the Court finds the first prong indicates the
Billboard Ordinance is a tax.
2. The Second Prong Indicates the Billboard
Ordinance Is a Fee.
The second prong indicates a charge is a fee when it is
imposed upon a narrow segment of the population. See
GenOn Mid-Atl., LLC v. Montgomery Cty., Md., 650 F.3d
1021, 1024 (4th Cir. 2011) (quoting Bidart Bros. v. Cal.
Apple Comm’n, 73 F.3d 925, 931 (9th Cir. 1996)); see also

98a
Antosh v. City of Coll. Park, 341 F.Supp.2d 565, 568
(D.Md. 2004).
There is no dispute that the Billboard Ordinance
affects only a narrow segment of the population and Clear
Channel is primarily responsible for bearing the financial
burden. Including Clear Channel, there are only four
entities that own or operate the outdoor advertising
displays subject to the Billboard Ordinance. (See Pl.’s
Mot. Summ. J. Ex. 10 at 6, ECF No. 37-11). And, what is
more, out of the approximately 830 advertising displays
subject to the Billboard Ordinance, Clear Channel owns
or operates approximately 800. (Id. Ex. 6 at ¶ 6, ECF No.
37-7). Consequently, Clear Channel is responsible for the
vast majority of the Billboard Ordinance’s financial
burden, paying $1.5 million annually, while the other
entities pay a comparatively meager $100,000. (See id. Ex.
6 at ¶ 6); (id. Ex. 10 at 6).
The City cites several cases outside the Fourth Circuit
for the proposition that a charge can be a tax under the
TIA even when it affects only a narrow segment of the
population. See, e.g., Entergy Nuclear Vt. Yankee, LLC v.
Shumlin, 737 F.3d 228, 233 (2d Cir. 2013) (“Many revenue
measures that are indisputably taxes, however, fall on a
limited portion of the population.”); Bidart Bros., 73 F.3d
at 931-32 (“[A]n assessment upon a narrow class of parties
can still be characterized as a tax under the TIA.”). The
Court, however, finds GenOn—a Fourth Circuit case—to
be more instructive.
In GenOn, the Fourth Circuit considered whether a
charge imposed by a county bill directed at large carbon
dioxide emitters was a tax or a fee under the TIA. The
court observed that the “chief problem” with the charge
was that the burden fell on GenOn alone. GenOn, 650 F.3d
at 1024. Though the bill, on its face, targeted a broad class

99a
of would-be taxpayers, in practice, only one entity met
that description and was subject to the charge. Id. Noting
that “taxes generally apply to at least more than one
entity” and “[t]he County Council . . . was thus well aware
that the incidence of the charge would fall entirely on
GenOn,” the court held that the charge was a fee under
the TIA. Id. at 1024-26.
Here, to be sure, there are a few entities other than
Clear Channel that own or operate advertising displays
subject to the Billboard Ordinance. Clear Channel,
however, is primarily responsible for the Billboard
Ordinance’s financial burden. Indeed, the other entities’
$100,000 annual responsibility appears almost de minimis
when compared to Clear Channel’s $1.5 million.
Moreover, the Baltimore City Council was well aware that
the Billboard Ordinance would primarily burden Clear
Channel. (See Pl.’s Mot. Summ. J Ex. 21 at 2, ECF No. 3722); (id. Ex. 18 at 2, ECF No. 37-19).
The City also argues the second prong indicates the
Billboard Ordinance is a tax because it uses general, openended criteria to define the population subject to it. This
argument fails for at least two reasons. First, the
Billboard Ordinance significantly circumscribes the
population subject to it by excluding “onsite” displays2
and those displays smaller than ten square feet. Balt.,
Md., Code art. 28, § 29-1(d). Second, even assuming the
Billboard Ordinance uses general, open-ended criteria,
that is not a material fact. Who the charge actually affects
is material. See GenOn, 650 F.3d at 1024 (“The fact that
this charge affects the narrowest possible class is
2
“Onsite displays” are displays that promote a business, commodity, service, event, or other activity conducted on the premises upon
which the display appears. See Balt., Md., Code art. 28 § 29-1(d).

100a
compelling evidence that it is a punitive fee rather than a
tax.” (emphasis added)). And, here, it is undisputed that
the Billboard Ordinance primarily affects Clear Channel.
The Court, therefore, finds the second prong indicates
the Billboard Ordinance is a fee.
3. The Third Prong Indicates the Billboard
Ordinance Is a Tax.
The third prong indicates a charge is a tax when the
revenue is paid into a general fund. Collins, 123 F.3d at
800-01. More important than where the revenue is placed,
however, is how the revenue is used. See id. at 801
(quoting Hager v. City of W. Peoria, 84 F.3d 865, 870-71
(7th Cir.1996)); Valero, 205 F.3d at 135 (explaining that a
court must examine the use and purpose of a charge as
opposed to performing a cursory review of where the
revenue is placed).
When the revenue is used to benefit the general public,
the charge is a tax. Valero, 205 F.3d at 134; see Club
Ass’n., 293 F.3d at 726. Conversely, when the revenue is
used to provide benefits that are “more narrowly
circumscribed,” the charge is a fee. Valero, 205 F.3d at
134.
Benefits are “more narrowly circumscribed” when the
revenue is used to benefit only the regulated entities or to
defray regulation costs. Collins, 123 F.3d at 800-01; see
State of S.C. ex rel. Tindal v. Block, 717 F.2d 874, 887 (4th
Cir. 1983); San Juan Cellular, 967 F.2d at 686.
There is no dispute that the City credits the revenue
generated by the Billboard Ordinance to the City’s
“General Fund.” (See Def.’s Mot. Summ. J. Ex. 11 at 2,
ECF No. 38-13); (id. Ex. 9 at 7, ECF No. 38-11). It is also
undisputed, however, that in November 2013, the

101a
Baltimore City Council enacted Ordinance 13-185 (the
“Art and Culture Ordinance”), a “Supplemental General
Fund Operating Appropriation” that allocated $250,000 of
the Billboard Ordinance’s revenue for “Art and Culture.”
(Def.’s Mot. Summ. J Ex. 14 [“Art and Culture
Ordinance”] at 1, ECF No. 38-16).3 The Art and Culture
Ordinance established the Creative Baltimore Fund (the
“Fund”) within the Baltimore Office of Promotion and the
Arts. (Id. at 2). The Fund was intended to provide small
grants to non-profit organizations for “cultural
community-based programming.” (Pl.’s Mot. Summ. J.
Ex. 29 at 1, ECF No. 37-30).
Clear Channel asserts that the Art and Culture
Ordinance demonstrates that the Billboard Ordinance is
a fee because it shows that the City always intended to use
the Billboard revenue for a specific purpose: supporting
arts and culture programs. (Pl.’s Mem. Opp’n Def.’s Mot.
Summ. J. & Reply Supp. Pl.’s Mot. Summ. J. at 12, ECF
No. 39). Clear Channel attempts to bolsters this argument
by pointing to an April 25, 2013 hearing before the City’s
Taxation, Finance and Economic Development
Committee at which Andrew Kleine, Chief of the City’s
Bureau of Budget and Management Research, remarked
that “$1.0 million from the [Billboard Ordinance’s]
proceeds have been included in the budget for arts and
culture.” (Pl.’s Mot. Summ. J. Ex. 21 at 2, ECF No. 37-22).
Clear Channel’s argument is unavailing. The
undisputed evidence that some of the Billboard
Ordinance’s revenue is dedicated to funding arts and
3
Specifically, the $250,000 allocated by the Art and Culture Ordinance represented “funds from billboard tax revenue in excess of the
revenue relied on by the Board of Estimates in determining the tax
levy required to balance the budget for Fiscal Year 2014.” (Art and
Culture Ordinance at 1).

102a
cultural programming demonstrates that the benefits of
the Billboard Ordinance are not narrowly circumscribed
to regulated entities. To the contrary, the benefits reach
the general public and all those who perform and enjoy
the arts and cultural programming supported by the
Fund. Indeed, the Fund has used Billboard Ordinance
revenue to support programming at public schools,
theaters, and museums—all institutions open to the
general public.4 (See Def.’s Mot. Summ. J. Ex. 30 at 1,
ECF No. 37-31).
Moreover, Clear Channel presents no evidence that
the City uses any portion of the Billboard Ordinance’s
revenue to provide narrow benefits to entities owning or
operating billboards in Baltimore City or to defray the
costs of regulating outdoor advertising. See Hedgepeth v.
Tennessee, 215 F.3d 608, 613-15 (6th Cir. 2000) (holding
that state assessment on disabled parking placards was a
tax under the TIA because “[t]here [was] simply no
evidence to support Plaintiffs’ contention that the funds
collected from the placards are paid into a special fund to
benefit the regulated entities or to defray the cost of
regulation”).
Clear Channel further argues the third prong
indicates the Billboard Ordinance is a fee because the
recitals demonstrate that it has a regulatory purpose.
There are two regulatory purposes that may indicate a
charge is a fee: (1) “generating income ear marked to
4
The Art and Culture Ordinance allocated only a portion of the
Billboard Ordinance revenue generated in 2014. Clear Channel presents no other spending ordinance’s showing that the City uses the
remainder of the Billboard Ordinance revenue to fund arts and culture. Even assuming the City uses all the Billboard Ordinance revenue to fund arts and culture, however, the benefits of this use are not
limited to outdoor advertisers subject to the Billboard Ordinance.

103a
cover the cost of regulation;” or (2) discouraging
particular conduct by making it more expensive.
Hedgepeth, 215 F.3d at 612. When a charge has one of
these regulatory purposes and the revenue is used to
advance the regulatory agenda, it is a fee. For example, in
GenOn, Montgomery County, Maryland imposed a
“carbon charge” to discourage greenhouse gas emissions.
650 F.3d at 1022. The Fourth Circuit held that the carbon
charge was a fee because fifty percent of the revenue was
earmarked for funding greenhouse gas reduction
programs. See id. at 1025-26. Indeed, the revenue was an
“integral part of the County’s greenhouse gas regulatory
agenda.” Id. at 1025.
Conversely, when a charge has one of these regulatory
purposes and the revenue is not used to advance the
regulatory agenda, but rather to benefit the general
public, it is a tax. For instance, in Club Association, the
West Virginia legislature enacted the West Virginia
Limited Video Lottery Act, which made it more expensive
to operate, manufacture, service, or sell video lottery
equipment by imposing licensing fees. 293 F.3d at 725.
One of the avowed purposes of the Act was to “stem the
proliferation of gambling in the State.” Id. at 724. West
Virginia used the revenue, however, to fund “programs
that would benefit the State’s populace as a whole,” such
as state park improvement. Id. at 726; Club Ass’n, 156
F.Supp.2d at 614. The Fourth Circuit held that the
licensing fees were a tax. Club Ass’n, 293 F.3d at 726.
The Billboard Ordinance recitals declare that outdoor
advertising “reduces the City’s ability to collect revenue
from other sources” and the Billboard Ordinance
“properly allocat[es] the potential economic burdens
caused by outdoor advertising.” Balt., Md., Ordinance 13139 at 2:5-8. At first blush, these statements suggest that

104a
the City intended to use the Billboard Ordinance to
generate revenue to cover the cost of regulating outdoor
advertising. Clear Channel presents no evidence,
however, that the City actually earmarks Billboard
Ordinance revenue to cover the cost of any such
regulation. Quite to the contrary, it is undisputed that the
City has used Billboard Ordinance revenue to fund arts
and culture—a purpose wholly unrelated to regulating
billboards.
The Billboard Ordinance recitals also declare that
“outdoor advertising endangers public safety by
distracting the attention of drivers from the roadway.” Id.
at 2:1-2. This statement suggests that the City intended
to discourage outdoor advertising by making it more
expensive. But the City does not use Billboard Ordinance
revenue to advance this regulatory agenda—there is no
evidence it uses Billboard Ordinance revenue to further
discourage roadway distractions or improve driver safety.
Instead, like in Club Association, the City uses Billboard
Ordinance revenue to benefit the general public by
funding programming at public schools, theaters, and
museums that are open to the general public.
For these reasons, the Court finds the third prong
indicates the Billboard Ordinance is a tax.
In sum, the first prong indicates the Billboard
Ordinance is a tax because the Baltimore City Council
enacted it and the Department of Finance, the City’s
general tax assessor, collects the revenue. The second
prong, however, indicates the Billboard Ordinance is a fee
because Clear Channel is primarily affected. Because the
first two prongs place the Billboard Ordinance

105a
somewhere between a fee and tax,5 the third prong
becomes most important. See Club Ass’n, 156 F.Supp.2d
at 613-14. The third prong strongly indicates the
Billboard Ordinance is a tax because the City does not use
Billboard Ordinance revenue to advance its regulatory
agenda, defray regulation costs, or provide a narrow
benefit to regulated entities. Thus, the Billboard
Ordinance is a tax. Accordingly, the Court lacks subjectmatter jurisdiction to resolve the merits of the
constitutional challenge.
CONCLUSION
Based on the foregoing reasons, Clear Channel’s
Motion for Summary Judgment (ECF No. 37) will be
DENIED and the City’s Cross-Motion for Summary
Judgment (ECF No. 38) will be GRANTED. A separate
Order follows.
Entered this 28th day of December, 2015.

5
In GenOn, the Fourth Circuit’s analysis of the first two prongs
was conclusive—the charge was clearly a fee because although the
charge was imposed by a legislature, indicating a tax, the charge affected only one entity, overwhelming indicating a fee. See 650 F.3d at
1024. The same cannot be said, however, for this case. As the Court
explained above, although Clear Channel is primarily affected by the
Billboard Ordinance, it is not solely affected. Thus, unlike in GenOn,
the Court’s analysis of the first two prongs is inconclusive.

106a
APPENDIX F
ARTICLE 28
TAXES
(As Last Amended by Ord. 21-032)

SUBTITLE 29 - OUTDOOR ADVERTISING
§29-1. Definitions.
(a) In general.
In this subtitle, the following terms have the
meanings indicated.
(b) Advertising host.
“Advertising host” means a person who:
(1) owns or controls a billboard, posterboard, or
other sign; and
(2) charges fees for its use as an outdoor
advertising display.
(c) Finance Director; Director.
“Finance Director” or “Director” means the
Director of Finance or a designee of the Director
of Finance.
(d) Outdoor advertising display.
“Outdoor advertising display” means an outdoor
display of a 10 square foot or larger image or
message that directs attention to a business,
commodity, service, event, or other activity that is:

107a
(i) sold, offered, or conducted somewhere
other than on the premises on which the
display is made; and
(ii) sold, offered, or conducted on the
premises only incidentally if at all.
(e) Person.
(1) In general.
“Person” means:
(i) an individual;
(ii) a partnership, firm, association,
corporation, or other entity of any kind; and
(iii) a receiver, trustee, guardian, personal
representative, fiduciary, or representative
of any kind.
(2) Exclusions.
“Person” does not include, unless otherwise
expressly provided, a governmental entity or
an instrumentality or unit of a governmental
entity.
(f) Square foot of advertising imagery.
“Square foot of advertising imagery” means a
square foot of space occupied by an outdoor
advertising display.
(Ord. 13-139.)
§ 29-2. Tax imposed.
An excise tax is imposed on the privilege of exhibiting
outdoor advertising displays in the City.
(Ord. 13-139.)

108a
§ 29-3. Amount of tax.
(a) In general.
The annual amount of the tax imposed is at the
following rates per square foot of advertising
imagery:
(1) $15 per square foot of advertising imagery
for an electronic outdoor advertising display
that changes images more than once a day; and
(2) $5 per square foot of advertising imagery
for any other outdoor advertising display.
(b) Tax for a single space.
If a single space is used for multiple outdoor
advertising displays during the course of one
reporting period, the advertising host who makes
that space available:
(1) must pay the annual tax as if the display that
would generate the highest tax liability had
been in place for the entire year; and
(2) need not pay an additional tax for any other
displays in that space.
(Ord. 13-139.)

